<html>
<title> - STATE OF EMERGENCY: THE DISASTER OF CUTTING PREPAREDNESS GRANTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    STATE OF EMERGENCY: THE DISASTER OF CUTTING PREPAREDNESS GRANTS

=======================================================================

                                 HEARING

                              BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-59

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
22-623 PDF                    WASHINGTON : 2016                       
________________________________________________________________________________________                               
                             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  

                              
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Honorable Bill De Blasio, Mayor, New York, New York:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                                Panel II

Mr. Jim Butterworth, Director, Emergency Management Agency/
  Homeland Security, State of Georgia, Testifying on Behalf of 
  the National Emergency Management Association:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Ms. Rhoda Mae Kerr, Fire Chief, City of Austin Fire Department, 
  Austin, Texas, Testifying on Behalf of the International 
  Association of Fire Chiefs:
  Oral Statement.................................................    37
  Prepared Statement.............................................    38
Mr. George Turner, Chief of Police, Atlanta Police Department, 
  Atlanta, Georgia, Testifying on Behalf of the Major Cities 
  Chiefs:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43
Mr. Mike Sena, Director, Northern California Regional 
  Intelligence Center, Testifying on Behalf of the National 
  Fusion Center Association:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48
Sgt. W. Greg Kierce, Director, Office of Emergency Management & 
  Homeland Security, Jersey City, New Jersey:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54

 
    STATE OF EMERGENCY: THE DISASTER OF CUTTING PREPAREDNESS GRANTS

                              ----------                              


                        Tuesday, March 15, 2016

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel M. Donovan, 
Jr., [Chairman of the subcommittee] presiding.
    Present: Representatives Donovan, Marino, Walker, 
Loudermilk, McSally, McCaul (ex officio), Payne, and Rice.
    Also present: Representative King.
    Mr. Donovan. The Committee on Homeland Security's 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order. The subcommittee is meeting 
today to examine the proposed cuts to grant programs in the 
President's fiscal year 2017 budget request.
    Before we begin, I ask unanimous consent that the gentleman 
from New York, Mr. King, a Member of the full committee, be 
permitted to sit on the dais and participate in today's 
hearing. Without objection, so ordered.
    I also ask unanimous consent to insert in the record a 
signed letter by 17 stakeholder organizations opposing the 
proposed grant cuts.*
---------------------------------------------------------------------------
    * The information has been included as part of Hon. de Blasio's 
statement included for the record.
---------------------------------------------------------------------------
    I now recognize myself for an opening statement.
    As Chairman of the Subcommittee on Emergency Preparedness, 
Response, and Communications, one of my fundamental 
responsibilities is to ensure our Nation's first responders 
have the tools they need to protect this country and, God 
forbid, respond to the next terrorist attack. That is why my 
first hearing is focusing on the dangerous cuts to homeland 
security grants proposed in the President's fiscal year 2017 
budget request.
    The President's budget cuts more than $500 million from 
programs that support States, cities, ports, transit systems, 
and fire services. This funding helps provide the training and 
equipment so critical to enabling our first responders to meet 
threats as varied as active-shooter scenarios, mass casualty 
events from a nuclear, chemical, or biological attack, and bomb 
plots targeting civilians in high-traffic areas.
    Such threats aren't just theories--in the nearly 15 years 
since the tragic attacks in 2001, law enforcement has thwarted 
sinister plots like these and more, including one involving an 
ISIS sympathizer in my own district. As this committee 
documented in a recent report issued by Chairman McCaul, there 
have been 75 terrorism plots against the West since early 2014. 
Forty-three percent of them were successfully executed, and the 
United States is the top target.
    Law enforcement, including the New York City Police 
Department and Joint Terrorism Task Forces, deserve our thanks 
for keeping Americans safe. So far, there have been 81 ISIS-
linked arrests in the United States, a number that will only 
grow as the organization continues to spread viral terrorism 
over the internet.
    Proposing cuts to the programs that keep the homeland safe 
would be foolish in any case, but they are particularly 
outrageous at a time when our threat level is the highest it 
has been since 2001. It would seem that either the President 
doesn't believe these threats exist or he doesn't care. But 
make no mistake: This is not the time for the Federal 
Government to cut support to help our Nation's first responders 
combat terror attacks.
    In discussing the budget proposal with the administration, 
we have heard various justifications for the cuts. They have 
told us that the cuts are a result of, ``FEMA's successful 
investments in prior years.'' They have claimed that it is a 
result of unspent funding from prior years. They have told us 
that the cuts are the result of difficult budget decisions, and 
that this budget, ``funds all of our vital homeland security 
missions in these challenging times.''
    The truth of the matter is, they have chosen to balance the 
budget on the backs of first responders knowing that many in 
Congress will vociferously oppose those cuts. We have heard 
time and again that these grant programs have made a 
difference. We heard it after the Boston Marathon bombings. We 
heard it after the natural disasters like Hurricane Sandy, 
which devastated my district, and the tornadoes in Moore, 
Oklahoma.
    I am especially interested in hearing how the recent 
investments made by New York City using Federal Homeland 
Security grants, such as hiring additional counterterrorism 
officers this year, could be hamstrung by the sudden drop in 
Federal funds. New York City and other jurisdictions that 
benefit from Federal security grants have made real 
contributions to increasing our country's readiness to meet 
terrorist threats.
    However, for local efforts to be truly effective, there 
must be a meaningful partnership with the Federal Government. 
Congress, and this committee in particular, has a history of 
bipartisanship when it comes to protecting our country and 
supporting first responders. We did it last year when we came 
together to permanently reauthorize the Zadroga Act to give 9/
11 first responders the health treatment and screenings they 
earned, and I am pleased to be here today working with Ranking 
Member Payne to oppose these dangerous homeland security cuts.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                             March 15, 2016
    As Chairman of the Subcommittee on Emergency Preparedness, 
Response, and Communications, my fundamental responsibility is to 
ensure our Nation's first responders have the tools they need to 
protect this country and, God forbid, respond to the next terrorist 
attack. That is why my first hearing is focusing on the dangerous cuts 
to homeland security grants proposed in the President's fiscal year 
2017 budget request.
    The President's budget cuts more than $500 million from programs 
that support States, cities, ports, transit systems, and the fire 
services. This funding helps provide the training and equipment so 
crucial to enabling our first responders to meet threats as varied as 
active-shooter scenarios, mass-casualty events from a nuclear, 
chemical, or biological attack, and bomb plots targeting civilians in 
high-traffic areas.
    Such threats aren't just theories--in the nearly 15 years since the 
tragic attacks in 2001, law enforcement has thwarted sinister plots 
like these and more, including one involving an ISIS sympathizer in my 
district. As this committee documented in a recent report issued by 
Chairman McCaul, there have been 75 terrorism plots against the West 
since early 2014. Forty-three percent of them were successfully 
executed, and the United States is the top target.
    Law enforcement, including the NYPD and Joint Terrorism Task 
Forces, deserve our thanks for keeping Americans safe. So far there 
have been 81 ISIS linked arrests in the United States, a number that 
will only grow as the organization continues to spread viral terrorism 
over the internet.
    Proposing cuts to the programs that keep the homeland safe would be 
foolish in any case, but they are particularly outrageous at a time 
when our threat level is the highest it's been since 9/11.
    It would seem that either the President doesn't believe these 
threats exist, or he doesn't care. But make no mistake: This is NOT the 
time for the Federal Government to cut support to help our Nation's 
first responders combat terror attacks.
    In discussing the budget proposal with the administration, we've 
heard various justifications for the cuts. They've told us that the 
cuts are a result of ``FEMA's successful investments in prior years.'' 
They've claimed that it is a result of unspent funding from prior 
years. And they've told us that the cuts are the result of difficult 
budget decisions and that this budget `` . . . funds all of our vital 
homeland security missions in these challenging times.'' The truth of 
the matter is they've chosen to balance the budget on the backs of 
first responders, knowing that many in Congress will vociferously 
oppose the cuts.
    We have heard time and again that these grant programs have made a 
difference. We heard it after the Boston Marathon bombings. We heard it 
after natural disasters like Hurricane Sandy, which devastated my 
district, and the tornadoes in Moore, Oklahoma.
    I am especially interested to hear how the recent investments made 
by New York City using Federal Homeland Security grants, such as hiring 
additional counterterrorism officers this year, could be hamstrung by 
the sudden drop in Federal funds. New York City and the other 
jurisdictions that benefit from Federal security grants have made real 
contributions to increasing our country's readiness to meet terrorist 
threats. However, for local efforts to be truly effective, there must 
be a meaningful partnership with the Federal Government.
    Congress, and this committee in particular, has a history of 
bipartisanship when it comes to protecting our country and supporting 
first responders. We did it last year when we came together to 
permanently reauthorize the Zadroga Act to give 9/11 first responders 
the health treatment and screenings they earned, and I am pleased to be 
here today working with Ranking Member Payne to oppose these dangerous 
homeland security cuts.

    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, Mr. Payne, for an opening statement he may have.
    Mr. Payne. Thank you, Mr. Chairman.
    Before I begin, I would like to congratulate Mr. Donovan on 
his Chairmanship, and thank him for holding today's hearing to 
explore the potential consequences of the proposed cuts to 
State and local homeland security grant programs.
    I represent the 10th Congressional District of New Jersey. 
It is the home of Newark Liberty International Airport, the New 
Jersey Transit Authority, the Port of Newark-Elizabeth Marine 
Terminal, and a dense area of industrial facilities that the 
New York Times has coined the most dangerous 2 miles in 
America.
    Over 100 potential terrorist targets are interspersed 
between homes and commuter corridors along that stretch. Those 
targets, coupled with the proximity to New York City, make the 
Newark-Jersey City metropolitan area regularly ranked among the 
most high-risk urban areas in the country.
    Although it is a somewhat dubious distinction, it has 
brought with it critical Federal funding. From the Urban Area 
Security Initiative to port and transit security grants, 
Federal funding has helped northern New Jersey improve 
preparedness planning, achieve interoperable communication 
capabilities, and harden infrastructure targets.
    Most importantly, Federal funding has supported important 
multi-jurisdictional exercises that challenge existing response 
capabilities so we can make them stronger. These human capital 
investments--planning, training, and exercises--cannot be one-
off investments. Rather, they must be repeated over time, both 
to train new responders and to help seasoned responders know 
how to take on emerging threats.
    Like many of my colleagues on this panel, I am very 
troubled by the administration's proposal to slash important 
homeland security grants in fiscal year 2017. In the 3\1/2\ 
years I have served as the subcommittee's Ranking Member, I 
have seen the domestic threat environment evolve, and our first 
responders are on the front lines.
    I understand that the administration has proposed to slash 
Federal homeland security grant funds to comply with the budget 
caps, and I take issue with that. We cannot afford to balance 
the budget on the backs of our first responders. Instead, 
Federal first responders' funding should be robust and 
predictable so that the State and local governments can 
effectively plan for the future investments.
    I am sure that the testimony we hear today will help us 
build the case to appropriators that strong homeland security 
grant funding should continue. Together, we can fight these 
cuts and win.
    Additionally, I would be interested in learning the 
witnesses' thoughts on the new grants to counter violent 
extremism, or CVE, and the proposed Regional Competitive Grant 
Program. The Department has failed to provide Congress with 
much detail on either program, and I would be interested to 
learn if DHS has conducted any outreach to the stakeholders and 
community about them.
    Particularly with respect to CVE grants, I am interested in 
hearing the witnesses' thoughts on what can be done to guard 
against certain populations being targeted or profiled. In the 
past, mosques in my Congressional district were the subject of 
surveillance by an out-of-State law enforcement agency.
    Although the NYPD program was subsequently disbanded, it 
showed us first-hand the dangers of profiling, and I want to be 
sure that precautions to avoid such outcomes are taken as we 
make the new money available for CVE.
    I want to thank the witnesses for being here today, 
particularly Sergeant Kierce, from Jersey City, New Jersey, and 
I look forward to their testimony.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             March 15, 2016
    I represent the 10th Congressional District of New Jersey. It is 
home to Newark Liberty International Airport, the New Jersey Transit 
Authority, the Port Newark-Elizabeth Marine Terminal, and a dense area 
of industrial facilities that the New York Times has coined ``the most 
dangerous 2 miles in America.''
    Over 100 potential terrorist targets are interspersed between homes 
and commuter corridors along that stretch. Those targets, coupled with 
its proximity to New York City, make the Newark-Jersey City 
metropolitan area regularly ranked among the most high-risk urban areas 
in the country.
    Although it is a somewhat dubious distinction, it has brought with 
it critical Federal funding. From the Urban Area Security Initiative to 
Port and Transit Security Grants, Federal funding has helped Northern 
New Jersey improve preparedness planning, achieve interoperable 
communications capabilities, and harden infrastructure targets.
    Most importantly, Federal funding has supported important multi-
jurisdiction exercises that challenge existing response capabilities so 
we can make them stronger. These ``human capital'' investments--
planning, training, and exercises--cannot be one-off investments.
    Rather, they must be repeated over time, both to train new 
responders and to help seasoned responders know how to take on emerging 
threats. Like many of my colleagues on this panel, I was very troubled 
by the administration's proposal to slash important homeland security 
grants for fiscal year 2017.
    In the 3\1/2\ years I have served as this subcommittee's Ranking 
Member, I have seen the domestic threat environment evolve as our first 
responders are on the front lines. I understand that the administration 
proposed to slash Federal homeland security grant funds to comply with 
budget caps and I take issue with that.
    We cannot afford to balance the budget on the backs of our first 
responders. Instead, Federal first responder funding should be robust 
and predictable, so that our State and local governments can 
effectively plan for future investments. I am sure that the testimony 
we hear today will help us build the case to appropriators that strong 
homeland security grant funding should continue. Together, we can fight 
these cuts and win.
    Additionally, I will be interested in learning the witnesses' 
thoughts on the new grants to Counter Violent Extremism (CVE) and the 
proposed Regional Competitive Grant Program. The Department has failed 
to provide Congress much detail on either program, and I will be 
interested to learn if DHS has conducted any outreach to the 
stakeholder community about them.
    Particularly with respect to CVE grants, I am interested in hearing 
the witnesses' thoughts on what can be done to guard against certain 
populations being targeting or profiled. In the past, mosques in my 
Congressional district were the subject of surveillance by an out-of-
State law enforcement agency.
    Although the NYPD program was subsequently disbanded, it showed us 
first-hand the dangers of profiling and I want to be sure that 
precautions to avoid such outcomes are taken as we make new money 
available for CVE.

    Mr. Donovan. The gentleman yields.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Texas, Mr. McCaul, for any 
opening statement that he may have.
    Mr. McCaul. Thank you, Chairman Donovan. Let me 
congratulate you on your first hearing, your inaugural hearing. 
I kind-of like the sound of that.
    Mr. Donovan. So do I.
    Mr. McCaul. It seems like today's a New York day. I can't 
think of a more important topic, though, for you to hold your 
first hearing on.
    I want to welcome the mayor of New York, and also my fire 
chief, Chief Rhoda Mae Kerr, who is also the president of the 
International Association of Fire Chiefs, and she's a friend of 
mine back home.
    As Chairman Donovan noted, we are at our highest threat 
level since 9/11, and, in fact, I recently released a report 
examining the 75 ISIS-linked terror plots against the West, to 
date, up from 19 in 2014.
    ISIS has reached an unprecedented level of terror plotting 
against the United States and our allies. Despite this growing 
threat, the President's budget falls short where we need it the 
most. Our city streets have become the front lines in the war 
against Islamist terror, yet the President proposes slashing 
funding to State and local first responders.
    Let me just say for the record, I have been to New York 
many times. I know I am from Texas, but I know that New York is 
perhaps the No. 1 target in the Nation. It is very important 
that we keep New York safe from this very high-threat level 
that is out there.
    We cannot let these cuts stand. I look forward to working 
with Chairman Donovan, and also the Chairman of the 
Subcommittee on Appropriations for Homeland Security, and our 
friends across the aisle to ensure that our first responders 
have the tools that they need to get this job done.
    With that, I yield back.
    Mr. Donovan. The gentleman yields back.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 14, 2016
    I have been responsible for overseeing how the Federal Government 
supports State and local preparedness and response activities for well 
over a decade--first as a Member of the Select Committee on Homeland 
Security in the 108th Congress and now as the permanent committee's 
Ranking Member.
    It has been my job to make sure that we never forget about the 
devastating events of September 11, 2001. I take seriously the 
recommendations of the 9/11 Commission that, should our first 
responders be called upon once again to respond to a terrorist attack, 
they have the training and equipment they need to do so more safely.
    I have worked hard to ensure that the Federal Government works with 
State and local governments to make the right investments with Federal 
grant dollars--to make sure that money is spent on building lasting 
capabilities rather than on equipment that may not last or work as 
promised.
    From where I sit, I can say with confidence that Federal grant 
investments have worked. We saw the capabilities achieved with UASI 
funds in action after the Boston Marathon bombings in 2013.
    Boston had used its funding to train and equip tactical and 
specialized response teams--including Explosive Ordnance Disposal 
detection and disruption--SWAT, and maritime units. The region used 
funds to host Integration of Bomb Technicians into Tactical Operations 
Training, which trained Improvised Explosive Device (IED) teams to 
operate with SWAT teams.
    In 2011, Boston participated in a Joint Counterterrorism Awareness 
Workshop. That exercise included more than 200 participants from 
Federal, State, and local governments and involved an integrated 
response to a 24-hour-long scenario in which multiple coordinated 
assaults occurred, much like the 2008 terrorist attacks in Mumbai, 
India.
    These grant investments were critical to Boston's successful 
response to the marathon bombings. Indeed, former Boston Police 
Commissioner Davis testified before this committee that without grant 
funding, the ``response would have been much less comprehensive than it 
was'' and without the exercises supported through UASI, ``there would 
be more people who had died in these . . . attacks.''
    Other cities and States across the country have echoed Commissioner 
Davis' praise of the grant programs. From achievements in interoperable 
communications capabilities, to emergency preparedness planning, to 
bolstering our ability to respond to CBRNE events, it is clear that 
homeland security grants yielded real results.
    It is also clear that the threats we face are growing and evolving. 
From the November terrorist attacks in Paris to the December attack in 
San Bernardino, we have learned that first responders will be called on 
to thwart and respond to more unconventional attacks.
    We must do everything in our power to help them be prepared to do 
so. That is why I was disturbed that the administration proposed 
cutting the preparedness grants by nearly half a billion dollars in its 
fiscal year 2017 budget request.
    I would note that this is not the first time grants have been 
raided to balance the budget.
    In fiscal year 2011, the first year the Republicans regained the 
Majority, targeted homeland security grants were cut from $2.75 billion 
to $1.9 billion, and we have seen the cuts continue ever since. This 
year, we have been told that the proposed grant cuts are the result of 
the administration's attempt to adhere to the arbitrary budget caps 
that continue to hamstring our ability to address evolving threats.
    Cuts like these are penny-wise and pound-foolish. Until Congress 
decides to act on meaningful budget reform legislation, we will 
continue to find ourselves in a predicament of our own making: Deciding 
whether to fund DHS operations or first responder grants.
    I thank our witnesses for being here today, and I look forward to 
their testimony. Their statements will serve as an important reminder 
of the value of grant investments.

    Mr. Donovan. We are pleased to have two panels of very 
distinguished witnesses before us today on this important 
topic. I will now introduce our first witness.
    Mayor Bill de Blasio is the 109th mayor of New York City. 
Prior to becoming mayor, Mr. de Blasio served 8 years on the 
City Council. In 2010, Mr. de Blasio was sworn in as New York 
City public advocate, the second-highest city-wide elected 
office. Additionally, Mr. de Blasio served on District 15 
school board in Brooklyn and worked as the Department of 
Housing and Urban Development's regional director for New York 
and New Jersey area.
    The witness' full statement will appear in the record. The 
Chair now recognizes Mayor de Blasio for 5 minutes.
    Welcome, Mr. Mayor.

  STATEMENT OF HONORABLE BILL DE BLASIO, MAYOR, NEW YORK, NEW 
                              YORK

    Mr. de Blasio. Thank you so much, Mr. Chairman.
    Chairman Donovan, I want to also congratulate you on behalf 
of 8.5 million New Yorkers. We are very proud that you have 
ascended to this role. It is important to our city, but it is 
also important to our Nation.
    I want to thank Ranking Member Payne and all the Members of 
the subcommittee.
    I want to also offer my thanks to Chairman McCaul, who has 
been doing so much to protect the security of all Americans, 
including all of us in New York City.
    A special thanks to Congressman King and Congresswoman 
Rice, who have been regular partners in the work we do 
protecting New York City. We all are in this together in the 
metropolitan area, so I thank you.
    I do want to also note, Mr. Chair, I want to offer again 
now publicly my condolences on the passing of your mother, 
Katherine. I would just say for the record, she had a lot to be 
proud of in the work that you have done in public service.
    I want to thank the subcommittee for this opportunity to 
speak. This issue is so important to all of us. I am proud to 
be the mayor of America's largest city. On top of that, New 
York City is a crucial transportation hub, global economic hub; 
the center, obviously, of the American financial industry, 
among other industries; and one of the world's most visited 
places. For these reasons and more, New York is the most 
targeted city in the United States and one of the most targeted 
cities world-wide in terms of terror efforts directed against 
us.
    Since 9/11, we have thwarted 20 terrorist plots--and I want 
to give all credit to the men and women of the NYPD and all of 
our other agencies who have done this extraordinary work--20 
plots over 15 years, and that includes 4 in the past 2 years. 
Mr. Chair, we have submitted this list to the committee of each 
and every one of those plots to give some context.
    We have also faced natural dangers, including Hurricane 
Irene, Superstorm Sandy, Ebola, and now the Zika virus. We have 
safely hosted every year the U.N. General Assembly and papal 
visits, including the one most recently in September, and also 
annually major National events like the New Year's Eve 
celebration in Times Square.
    Twenty-four hours a day, 7 days a week, thousands of brave 
men and women are on the ground closely monitoring and pursuing 
every potential threat, but they can't do it alone. The Urban 
Area Security Initiative, or UASI, this funding is crucial to 
our continued safety.
    First, UASI helps us prevent terror. UASI funding helps 
employ the people who keep us safe, like the NYPD intelligence 
specialists who monitor incoming information all day every day. 
Our new 500-plus officer Critical Response Command is a full-
time counterterror force highly-trained, well-armed to deal 
with the challenges of today.
    UASI is also critical to developing and acquiring the 
technology that protects us in the world of 21st Century 
threats, and that includes the Domain Awareness System, a web 
of 8,000 cameras and sensors linked to technology that can read 
license plates and detect radiation. It also includes the 
NYPD's counterterrorism helicopter that scans nautical vessels 
in our waters to guard against any nuclear devices. You have 
images here to show you that helicopter.
    Second, UASI funds are also critical to our ability to 
vigorously respond to crises. UASI supports NYPD active-shooter 
tactical training for 3,500 officers so they can confront 
gunmen like those who brutally attacked people in Paris at 
multiple locations.
    The New York City Department of Health uses UASI funding to 
identify and isolate diseases and bioterror.
    The Fire Department of New York City has deployed UASI 
funds to acquire a fire boat that can filter out chemical, 
biological, and nuclear contamination to allow personnel to 
work in the midst of an attack. We have an image of the fire 
boat there.
    So my message today is simple and urgent: We need the 
Congress to do its part to protect New York City and, in fact, 
all of the United States from security threats. That is why I 
am deeply concerned about the proposed fiscal year 2017 budget 
cuts to UASI.
    New York State has roughly $600 million in UASI and other 
funds from the fiscal year 2014 and fiscal year 2015 allotment, 
of which New York City received and spent about $311 million, 
about half of the allotment for New York State.
    Under the fiscal 2017 proposal, we are facing a 50 percent 
cut, 50 percent cut across the Nation, which would likely, of 
course, cut New York City's allocation in half as well, at a 
time when we are seeing more severe and more complex terror 
threats. We cannot reduce our commitment to public safety. We 
simply can't afford to stand back when these threats are 
becoming greater and more challenging. And remember, the 
effects of a catastrophe in New York City affect the entire 
Nation. After 9/11, the Dow dropped over 600 points, and the 
2001 recession deepened.
    Before concluding, I want to note that NYC taxpayers are 
investing a great deal of their own dollars to fight terrorism. 
For example, city funds are equipping our 36,000 police 
officers with new technology they can use to receive terror 
alerts, essentially giving us 36,000 counterterror officers at 
any given moment when we need them.
    We have always relied on the Federal Government to be a 
strong partner. We need that partnership to continue. It is 
essential, not just for 8.5 million New Yorkers that call New 
York City home, but for all Americans.
    Again, thank you for the opportunity to testify on this 
crucial matter.
    [The prepared statement of Mr. de Blasio follows:]
                  Prepared Statement of Bill de Blasio
                             March 15, 2016
    Good morning Chairman Donovan, Ranking Member Payne, and Members of 
the Subcommittee on Emergency Preparedness, Response, and 
Communications. My thanks to the entire subcommittee for giving me the 
opportunity to speak with you about the importance of homeland security 
funding for America's cities.
    While I can only speak for New York City specifically, I know the 
27 other areas selected as Urban Area Security Initiative (UASI) 
recipients consider these dollars to be absolutely essential to keeping 
their people safe. My message is simple and urgent: We need Congress to 
do its part to protect New York City and the United States from terror 
and other major security threats. That is why I am deeply concerned 
about the proposed fiscal year 2017 budget cuts to UASI.
    Of the fiscal year 2014 and fiscal year 2015 allotment, New York 
State has roughly $600 million in UASI and State Homeland Security 
Grant Program funds. New York City represents $311 million of these, 
the entirety of which have already been allocated to keeping our region 
safe. Under the fiscal year 2017 proposal, we are facing a 50 percent 
National level cut to $330 million. New York City's allocation would 
likely be halved as well. We cannot afford as a city or a Nation to 
reduce our commitment to public safety at a time when threats are 
increasing--in both number and complexity.
    And let us be clear, it is not just funding year-to-year that 
matters here. Continuity over time is vital to keeping us safe. 
Preparations require planning. For example, our counter-terrorism 
assets such as ambulances, helicopters, and fire boats were carefully 
designed and built for our needs.
    Before the tragic events of 9/11, and since that terrible day, New 
York City has statistically been the No. 1 most targeted city in the 
United States and one of the most targeted cities in the world. Since 
2001, we have thwarted 20 terrorist plots against New York City. We 
have prevented 4 such plots in the past 2 years alone. This heightened 
environment is widely recognized. The same week these cuts were 
announced, the Director of National Intelligence testified to the 
Senate Armed Services Committee that the threat from al-Qaeda and ISIL 
was now more layered and complex than any other time since 9/11. And in 
addition to man-made threats, New York has faced natural dangers--
including Hurricane Irene and Super Storm Sandy, Ebola, Legionella, and 
the Zika virus.
    Many of these challenges extend beyond the 5 boroughs. The UASI 
allocation for the New York City area includes Nassau, Suffolk, 
Westchester, Yonkers, with additional funds for the Port Authority of 
New York and New Jersey. We are the Nation's largest metro area, with a 
population of about 20 million people, close to 60 million tourists 
annually, and more than half a million hard-working Americans who 
commute into our city each day. For context, the number of commuters we 
receive daily is almost equal to the entire population of Baltimore, 
Maryland.
    Our nimble and complete action to prevent threats from striking and 
to respond quickly and effectively in the event they do, depends on the 
resources provided by UASI. I would like to take you through just some 
of the ways that UASI helps us both prevent terror and be ready to meet 
it head-on with the most vigorous, proactive, and sophisticated 
response possible. And I want to acknowledge the extraordinary and 
tireless efforts of the brave men and women from a number of agencies 
who protect New York City--and clearly illustrate just how important 
UASI funding is to their work.
    Every day, New York City has thousands of professionals on the 
ground constantly monitoring and working to prevent acts of terror. It 
is a never-ending endeavor that permeates every corner of our city and 
it starts with prevention.
    For example, UASI provides the entire annual budget for vital 
programs like the New York Police Department (NYPD) Domain Awareness 
System. This web of 8,000 cameras--and growing--is linked to a network 
of license plate readers, radiation detectors, and biological sensors 
that act as an early warning system. We also use UASI funding to employ 
a number of NYPD's intelligence research specialists who pore over 
threat information 24 hours a day, 7 days a week.
    UASI funding supports NYPD's counter terrorism helicopter 
specifically outfitted with radiation equipment that scans vessels 
before they enter New York Harbor to detect the possibility of a 
nuclear device--for example a dirty bomb hidden in cargo. This 
helicopter also patrols critical infrastructure that runs across miles 
of New York City like the Buckeye Pipeline that carries aircraft fuel 
to John F. Kennedy International airport.
    UASI funds pay for vital equipment that allows our Bomb Squad to 
neutralize suspicious packages and live explosive devices every day. 
And UASI funds have allowed us to train and deploy a dozen Vapor Wake 
Explosive Detection K-9s, who can track a suicide bomber moving through 
a crowd, on the subway, or in open spaces like Times Square.
    Now, UASI funds are also critical for our preparedness to respond 
to a crisis as it unfolds.
    UASI funding sustains our new 500-officer Critical Response 
Command, specially-trained police officers assigned full-time to 
counter-terrorism. The same funds pay for the specially-designed NYPD 
escape masks that every police officer is issued to protect them in the 
event of a chemical attack on our streets and subways. Such a plot--the 
subway cyanide plot--was already planned by al-Qaeda, but was uncovered 
before it could be launched. And UASI funds support active-shooter 
tactical training for 3,500 street cops who may have to confront gunmen 
such as those who stormed the Bataclan Theater in Paris, or the office 
party in San Bernardino. Our goal is to extend this important training 
to 20,000 officers.
    The New York City Fire Department (FDNY) Counter Terrorism Bureau 
counts on UASI funds to maintain the special equipment and training 
that would be used in a Mumbai- or Benghazi-type attack. It is 
important to note our fire department is also responsible for the 
city's ambulances. And Emergency Medical Service (EMS) is a vital part 
of our response strategy. Fire EMS is using these funds with their 
police partners to develop and train rescue task forces that can move 
in and remove the wounded even while an attack may still be in 
progress. FDNY has also used UASI funds to acquire a fireboat that 
houses a protective room with Chemical, Biological, Radiological, 
Nuclear, and Explosive air filtration equipment allowing personnel to 
continue operations even under hazardous conditions.
    The New York City Department of Health uses UASI funding to quickly 
identify and isolate diseases and acts of bioterror, and subsequently 
respond with vaccinations and other efforts on a mass scale.
    Our Office of Emergency Management (OEM) relies on these funds to 
equip a state-of-the-art command center that would be the hub of 
coordinating efforts to maintain operations across multiple city 
agencies as well as consequence-management in the aftermath of a 
crisis. OEM also facilitates drills and exercises that keep our 
agencies at a level of preparedness for a threat that Federal officials 
have characterized as something that is not an ``if'' but a ``when'' 
scenario.
    And these are just a few examples. UASI funds have a profound and 
wide-ranging impact on everything we do to prepare for, prevent, 
mitigate, and recover from disasters. Since September 11, 2001 New York 
City has been remarkably successful at staying ahead of those plotting 
to harm our people and reducing the impact of natural disasters and 
dangerous diseases. But we shouldn't be lulled into complacency by our 
success. What we have been doing for the past 14 years has been nothing 
short of cutting-edge and we cannot afford to let that edge get even 
slightly dull. We must remember that disaster can strike any time.
    We must also remember the effects of a catastrophe in New York City 
would cause suffering across our entire Nation. That's why after the 
September 11 attacks we saw the DOW drop more than 600 points, the 2001 
recession deepen, and the beginning of the War on Terror, which has 
cost the United States close to $2 trillion so far.
    New York City is a target because it is our largest city; a major 
port of entry; a hub for air, sea, rail, and road transportation; a 
capital of the United States economy; a globally-recognized symbol of 
democracy, and one of the world's most visited places. We are proud to 
host large audiences at events such as the United Nations General 
Assembly, the recent visit of the Pope, our annual Thanksgiving Day 
parade, the Rockefeller Center Tree Lighting Ceremony and our New 
Year's Eve celebration, and we are equally proud to have successfully 
kept everyone safe.
    Before concluding, I want to note that New York taxpayers are 
contributing their fair share, investing a great deal of their own 
dollars to fight terrorism. For example, city funds are equipping every 
single one of our 36,000 police officers with a smartphone that will 
allow them to instantly receive terrorism alerts. That will, in effect, 
give us 36,000 counter-terrorism officers when we need them. Additional 
investments include vehicles, helmets shields, and other equipment for 
counter terror personnel, our shot spotter gunshot detection system 
that will isolate a gun-related incident across 60 square miles city-
wide and the operations budget for the NYPD Harbor Unit that patrols 
our vast coastline. But we simply can't maintain this posture without 
help from the Federal Government.
    Until now, we have been able to rely on the Federal Government to 
be a true and strong partner. Today, we need that partnership to 
continue. As elected officials, our primary and most sacred obligation 
is to ensure the safety of those we serve.
    That is as true in your districts as it is everywhere in our 
Nation. So I ask you, no matter where you come from: Take bold action 
to ensure the safety of cities across our Nation and fully fund UASI. 
This is tantamount to protecting not just the safety and economic 
vitality of New York City, but that of our region and the Nation as a 
whole.
    It is essential--not just to the 8.5 million Americans that call 
New York City home--but to all Americans.
    Again, I thank you for the opportunity to testify on this critical 
matter.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Attachment 1.--UASI Mayors' Letter
The Honorable Thad Cochran, Chairman,
The Honorable Barbara Mikulski, Vice Chairwoman,
Committee on Appropriations, United States Senate, Washington, DC 
        20510.
The Honorable John Hoeven, Chairman,
The Honorable Jeanne Shaheen, Ranking Member,
Subcommittee on Homeland Security, Committee on Appropriations, United 
        States Senate, Washington, DC 20510.
The Honorable Hal Rogers, Chairman,
The Honorable Nita Lowey, Ranking Member,
Committee on Appropriations, United States House of Representatives, 
        Washington, DC 20515.
The Honorable John Carter, Chairman,
The Honorable Lucille Roybal-Allard, Ranking Member,
Subcommittee on Homeland Security, Committee on Appropriations, United 
        States House of Representatives, Washington, DC 20515.
    Dear Representatives Rogers, Lowey, Carter, and Roybal-Allard: We 
write on behalf of cities across the nation that would be significantly 
harmed by the deep funding cuts to the Urban Area Security Initiative 
(UASI) as proposed in the President's FY 17 budget. As Mayors, we share 
the strong belief that severe cuts to key homeland security grant 
programs directly jeopardize the safety of the citizens we represent. 
As the threat continues to grow, we ask Congress to restore these funds 
that are essential for cities to adapt and remain nimble in responding 
to evolving threats.
    We are alarmed that the proposed cuts would translate into 
reductions across the spectrum of security. The UASI program is facing 
an almost 50 percent cut, from $600 million this year to $330 million 
next year. This funding is essential to many ongoing counterterrorism 
operations, investments in public safety communications, core 
competency training for police and fire, public health readiness and 
overall emergency preparedness.
    These proposed reductions are particularly alarming in the wake of 
mounting global attacks in major cities like Paris and here at home in 
San Bernardino. In New York City, which continues to be the Nation's 
number one terror target, twenty plots have been thwarted since 2001 
alone. To date, the only explanation provided for the recommended 
funding decrease is the need for hard choices in the current budget 
environment. This statement is not reflective of the need we see in the 
distinct communities we represent across the nation. Rather the 
equipment, training, system development and best practices that have 
resulted from access to UASI funds provide far reaching region wide 
benefits.
    Reducing UASI funding destabilizes on-going security and 
intelligence gathering efforts that protect our citizens, commuters, 
and businesses. Law enforcement requires this funding to continue to 
procure the necessary equipment to detect potential chemical, 
biological, and radiological weapons. First responders utilize funds to 
train and develop innovative best practices to improve response and 
save lives. These investments in security preparedness are crucial for 
both the safety and security of our residents, as well as the countless 
tourists who visit our cities.
    We are united in urging you to reject these proposed cuts and fully 
fund UASI. Heightened concern over terrorism and violent extremism at 
home makes adequate funding more critical than ever. It is in the 
interest of the security of our cities, and indeed the nation, to do 
everything possible to prevent any potential attacks. When UASI is 
fully funded, local governments across the nation are empowered to 
better protect the people who call our cities home.
            Sincerely,
                                            Bill de Blasio,
                                             Mayor of New York, NY.
                                             Eric Garcetti,
                                          Mayor of Los Angeles, CA.
                                              Martin Walsh,
                                               Mayor of Boston, MA.
                                  Stephanie Rawlings-Blake,
                                            Mayor of Baltimore, MD.
                                             Muriel Bowser,
                                           Mayor of Washington, DC.
                                                    Ed Lee,
                                        Mayor of San Francisco, CA.
                                              Francis Slay,
                                            Mayor of St. Louis, MO.
                                             Mike Rawlings,
                                               Mayor of Dallas, TX.
                                             Kevin Johnson,
                                           Mayor of Sacramento, CA.
                                             Chris Coleman,
                                             Mayor of St. Paul, MN.
                                             Jeff Williams,
                                            Mayor of Arlington, TX.
                                           Kevin Faulconer,
                                            Mayor of San Diego, CA.
                                              Sam Liccardo,
                                             Mayor of San Jose, CA.
                                             Miguel Pulido,
                                            Mayor of Santa Ana, CA.
                                           Carolyn Goodman,
                                            Mayor of Las Vegas, NV.
                                             Edward Murray,
                                              Mayor of Seattle, WA.
                                               Betsy Price,
                                           Mayor of Fort Worth, TX.
                                                Andy Hafen,
                                            Mayor of Henderson, NV.
Attachment 2.--UASI Coalition Letter From Local Elected Officials, Law 
                   Enforcement, and First Responders
                                 February 22, 2016.
The Honorable Harold Rogers,
Chairman, Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable John Carter,
Chairman, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable Nita Lowey,
Ranking Member, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable Lucille Roybal-Allard,
Ranking Member, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
    Dear Mr. Rogers, Ms. Lowey, Mr. Carter, and Ms. Roybal-Allard: We 
write on behalf of local elected officials, emergency managers, port 
operators, transit operators, police chiefs, sheriffs, and the major 
fire service organizations to register our strong concern with the 
severe cuts to four key homeland security grant programs proposed in 
the President's FY (Fiscal Year) 2017 budget. In all these programs 
would be cut by 44 percent below FY 2016 levels. The Urban Area 
Security Initiative Program would be cut by 45 percent, from $600 
million this year to $330 million next year. The State Homeland 
Security Grant Program would be cut by 57 percent, from $467 million 
this year to $200 million next year. Public Transportation Security 
Assistance would be cut by 15 percent to $85,000 next year, Port 
Security grants by 7 percent to $93 million next year.
    There is a certain irony to the proposed cuts. They come in the 
wake of terrorist attacks not just in cities abroad, but on our shores, 
in Chattanooga, San Bernardino and Philadelphia, for example. Further, 
the Department of Homeland Security's Budget in Brief highlights the 
programs' accomplishments, and offers no explanation for the cuts:

``Through a suite of homeland security grant programs, (DHS) provided 
critical support to the nation's preparedness for acts of terrorism and 
other threats and hazards. In 2015, FEMA awarded more than 600 grants 
to support state, local, tribal and territorial governments, transit 
agencies, port operators, non-profit organizations, and other partners 
in building and sustaining the 31 critical core capabilities described 
in the National Preparedness Goal. As a result of those grants, states 
and localities across the country reported capability increases in 12 
of the 31 core capabilities compared to 2014. The federal investment in 
those capabilities pays off each day in communities across the country 
during incidents large and small. For example, much of the training and 
equipment used in response to the May 2015 AMTRAK derailment in 
Philadelphia, including lighting, tourniquets, and technical rescue 
capabilities, were paid for with grants provided by FEMA.''

    As you begin development of FY 2017 appropriations legislation, we 
urge you to reject these proposed cuts and to fund these critical 
programs at least at FY 2016 funding levels. At a time of heightened 
concern about terrorism and violent extremism at home, increased 
funding for them would certainly be justified. They play a vital role 
in ensuring that state and local governments are prepared to respond to 
future terrorist attacks and have the necessary resources to protect 
their communities and their residents.
    If we can provide further information or assistance, please contact 
us through the U.S. Conference of Mayors' Public Safety Director[.]
            Sincerely,
                  American Association of Port Authorities,
                American Public Transportation Association,
  The Association of State Criminal Investigative Agencies,
                               Big City Emergency Managers,
                     Congressional Fire Services Institute,
                  International Association of Fire Chiefs,
                International Association of Fire Fighters,
                           Major Cities Chiefs Association,
                        Major County Sheriffs' Association,
                          National Association of Counties,
                        National Fusion Center Association,
                      National Homeland Security Coalition,
                                 National League of Cities,
                            National Sheriffs' Association,
                           National Volunteer Fire Council,
                    The United States Conference of Mayors,
U.S. Council of the International Association of Emergency 
                                       Managers (IAEM-USA).
 Attachment 3.--Terrorist Plots Targeting New York City September 11, 
                            2001 to Present
                           1. brooklyn bridge
    In 2002, Iyman Faris, a U.S.-based al-Qaeda operative, planned to 
cut the Brooklyn Bridge's support cables at the direction of 9/11 
mastermind Khalid Sheikh Mohammed. However, as a testament to NYPD 
terrorism deterrence efforts, Faris called off the plot, indicating to 
al-Qaeda leaders that ``the weather is too hot.'' NYPD's 24-hour 
coverage of the bridge, much of which was put in place following 9/11 
and intentionally made highly visible, played a large role in Faris' 
decision to abandon the plot. Faris was arrested in 2003, pleaded 
guilty, and sentenced to 20 years in Federal prison for providing 
material support and resources to al-Qaeda, among other charges. 
Knowing that the city's bridges and critical infrastructure remain 
attractive terrorist targets, the NYPD maintains heightened security 
around such facilities.
                        2. subway cyanide attack
    In 2003, al-Qaeda had planned to release cyanide gas in New York 
City's subway system, which carries more than 5,000,000 passengers on 
an average weekday, as well as targeted other public places for attack. 
According to a U.S. Government official familiar with the plot, the 
plan was called off by Osama bin Laden's second-in-command, Ayman al-
Zawahiri, for unclear reasons. The NYPD took appropriate precautions 
after becoming aware of the plot.
                            3. the parachas
    In 2006, Uzair Paracha, a Brooklyn resident, was sentenced to 30 
years in Federal prison after he was convicted of attempting to help 
al-Qaeda operative Majid Khan enter the United States to attack gas 
tanks in a plot developed alongside 9/11 planner Khalid Sheikh 
Mohammed. In early 2003, Paracha impersonated Khan in dealings with the 
Immigration and Naturalization Service (INS), and agreed to use Khan's 
credit card to make it appear Khan was in the United States rather than 
in Pakistan. He also was in possession of several identification 
documents in Khan's name, and written instructions from Khan on how to 
pose as Khan in dealing with the INS. Paracha was found guilty in 2005 
on charges including conspiracy to provide and providing material 
support to al-Qaeda; conspiracy to provide, and providing funds, goods, 
or services to al-Qaeda; and identification document fraud committed to 
facilitate an act of international terrorism. Majid Khan pleaded guilty 
in February 2012 in a military court at Guantanamo to charges stemming 
from his involvement with al-Qaeda and admitted to the gas tank plot, 
planning to assassinate Pakistan's President Musharraf, and complicity 
in a 2003 bombing of a Marriot hotel in Jakarta, Indonesia. The NYPD 
cooperated with Federal authorities through the Joint Terrorism Task 
Force to uncover Paracha's plan.
    Uzair Paracha's father, Saifullah Paracha, also was alleged to have 
aided al-Qaeda. The senior Paracha worked with Khalid Sheikh Mohammad 
to devise a way to smuggle explosives--including possibly nuclear 
weapons--into the United States using the New York office of Paracha's 
import-export business. Saifullah Paracha, who attended the New York 
Institute of Technology and worked in the city for over a decade, was 
arrested in 2003 after Uzair stated to authorities that his father was 
a militant.
          4. new york stock exchange & citigroup headquarters
    Dhiren Barot (aka Issa al-Hindi) was sentenced to life in prison by 
a United Kingdom court in 2006 after pleading guilty to planning to 
attack several targets both in the United Kingdom and the United 
States, including the New York Stock Exchange, Citigroup's headquarters 
in Midtown Manhattan, and the Prudential Building in Newark, NJ. In 
addition, Barot filmed reconnaissance video during a trip to the United 
States in March 2001 that included shots of the World Trade Center. He 
also targeted the offices of the International Monetary Fund and World 
Bank in Washington, DC and hotels and railway stations in London. Barot 
was arrested by British police in August 2004 shortly after U.S. 
authorities raised the Terror Alert level based on intelligence that 
al-Qaeda had conducted extensive reconnaissance of financial 
institutions in the United States. NYPD responded to the alert by 
reaching out to New York's financial companies to discuss security, 
deploying tactical teams to high-threat locations, and increasing 
vehicle inspections. Seven of Barot's accomplices were given long 
prison sentences by a British court in 2007 for their involvement in 
the plot.
                            5. herald square
    Shahawar Matin Siraj and James Elshafay plotted in 2004 to place 
explosive devices in the Herald Square subway station in Manhattan. 
Elshafay had already given consideration to potential targets by the 
time he met an NYPD informant in early 2004. In recorded conversations, 
Siraj expressed desire to bomb bridges and subway stations, and cited 
misdeeds by American forces in Iraq as a motivating factor. Siraj and 
Elshafay conducted surveillance of Herald Square station in late August 
2004 and drew a crude diagram to aid in placing the explosives; they 
were arrested a few days later. Elshafay pleaded guilty to conspiracy 
to damage or destroy a subway station by means of an explosive. Siraj 
was found guilty in 2006 of conspiracy to place and detonate an 
explosive in a public transportation system; conspiracy to damage and 
destroy, by means of an explosive, a building or vehicle; conspiracy to 
wreck and disable a mass transportation vehicle; and conspiracy to 
place a destructive device in or near a facility used in the operation 
of mass transportation. He was subsequently sentenced to 30 years in 
prison. Shepherding the case from initial lead to Federal prosecution 
required close cooperation with the U.S. Attorney's Office for the 
Eastern District of New York.
          6. path train and world trade center retaining wall
    In July 2006, the FBI revealed it had uncovered a plot involving an 
attack on a PATH commuter train tunnel connecting New York and New 
Jersey, the placement of suicide bombers on trains, and the destruction 
of the retaining wall separating the Hudson River from the World Trade 
Center site in the hopes of causing massive flooding in the city's 
Financial District. The plot was uncovered in its early stages through 
a year-long FBI investigation that included the monitoring of internet 
chat rooms frequented by extremists, and involved at least 8 suspects 
spread over several countries. The plot's alleged mastermind, al-Qaeda 
affiliated Assem Hammoud of Lebanon, was taken into custody by 
authorities there. Hammoud said he was acting on orders from Osama bin 
Laden and that he was planning to travel to Pakistan to receive 
training at an al-Qaeda camp. Another suspect was arrested in Canada 
and a third in England.
                             7. jfk airport
    Beginning in 2006, 4 men plotted to detonate the jet-fuel storage 
tanks and supply lines for John F. Kennedy Airport in order to cause 
wide-scale destruction and economic disruption in an attack they 
intended to dwarf 9/11. Through the Joint Terrorism Task Force, the 
NYPD worked with the FBI, which placed an informant next to the 
principle plotter, Russell Defreitas, a native of Guyana and Brooklyn 
resident who was an airport cargo handler. Defreitas's accomplices were 
Abdul Kadir, a former parliamentarian from Guyana with admitted ties to 
Iran; Abel Nur of Guyana; and Kareem Ibrahim of Trinidad and Tobago. 
Relying in part on Defreitas' knowledge, the men conducted extensive 
surveillance of the airport, and traveled to Guyana and Trinidad and 
Tobago to attempt to secure the support of Jamaat al-Muslimeen, an 
Islamic extremist group operating in the region. The group also 
discussed contacting Adnan Shukrijumah, an al-Qaeda explosives expert 
believed to be in the Caribbean at the time. Kadir was sentenced to 
life in prison in 2010; Nur was sentenced to 15 years in 2011 after 
pleading guilty to material support the previous year; Ibrahim received 
life in 2012. All 3 were extradited to the United States to stand 
trial. Defreitas was arrested in New York and received a life sentence 
in 2011 after being convicted of conspiracy to attack a public 
transportation system; conspiracy to destroy a building by fire or 
explosive; conspiracy to attack aircraft and aircraft materials; 
conspiracy to destroy international airport facilities; and conspiracy 
to attack a mass transportation facility.
                         8. transatlantic plot
    In a series of 3 trials spanning 2008 to 2010, 8 men were convicted 
in Britain of attempting to simultaneously detonate explosives in 7 
airliners traveling from London to several North American metropolises, 
including New York. British authorities also sought Rashid Rauf, a 27-
year-old Briton of Pakistani descent and prominent al-Qaeda operative, 
as a main suspect in the plot. After Rauf's arrest in Pakistan in 
August 2006, his detention led to the arrest of 25 additional suspects 
in Britain. Authorities believed the plan involved the use of peroxide-
based liquid explosives that could evade air travel security measures 
in place at the time. The discovery of the plot involved cooperation 
between American and British authorities.
                9. sabrihan hasanoff & wessam el-hanafi
    Co-conspirators Sabrihan Hasanoff, a dual-citizen of the United 
States and Australia, and Wessam el-Hanafi, a Brooklyn resident who was 
extradited after his 2010 arrest in the United Arab Emirates, pleaded 
guilty to providing and attempting to provide material support to al-
Qaeda and conspiring to provide material support to al-Qaeda. Hasanoff 
was sentenced to 18 years in prison in September 2013 and el-Hanafi was 
sentenced to 15 years in prison in January 2015. Both men admitted to 
supporting al-Qaeda in a variety of ways beginning in 2007 when the men 
developed contact with individuals they knew to be members of the 
group. Using aliases, Hasanoff and el-Hanafi funneled $67,000 to al-
Qaeda operatives overseas, and in 2008 El-Hanafi traveled to Yemen to 
meet with his contacts, swearing an oath of allegiance to Osama Bin 
Laden's organization. El-Hanafi also delivered money and electronics to 
the men during this trip, while at the same time teaching the Yemen-
based individuals covert communication techniques using encrypted 
software. At the request of their Yemen-based associates and as 
directed by el-Hanafi, Hasanoff performed surveillance on potential 
targets in the United States including the New York Stock Exchange. El-
Hanafi forwarded the report to al-Qaeda, which viewed both men as 
operatives for a potential attack in the United States. The NYPD 
Detectives assigned to the Joint Terrorism Task Force assisted in the 
FBI investigation.
                        10. long island railroad
    Bryant Neal Vinas, of Long Island, New York, traveled to Pakistan 
with an intent to die fighting against American forces in Afghanistan. 
He was later called to testify in the trial of Adis Medunjanin, one of 
Najibullah Zazi's co-conspirators in the September 2009 subway plot 
(see below). In his testimony, Vinas stated he was motivated by the 
preaching of radical Yemeni-America cleric Anwar al-Awlaki. He spent 
much of his time in Pakistan shopping for a group to join before 
ultimately ending up in North Waziristan in Pakistan's tribal areas in 
early 2008 and subsequently received over 5 weeks of terrorism training 
from al-Qaeda. In summer of 2008, Vinas spoke to al-Qaeda about 
targeting the Long Island Railroad using a suitcase bomb that would be 
left in a car and set to detonate. He drew maps of Long Island and 
showed that all LIRR trains passed through one tunnel when entering 
Manhattan; suggesting that an explosion in the tunnel would cause the 
most damage. Pakistani authorities arrested Vinas in November 2008 and 
he pleaded guilty in the United States to Federal charges of conspiracy 
to murder, material support to al-Qaeda, and receiving military 
training from al-Qaeda.
                          11. bronx synagogues
    In May 2009, 4 men placed what they believed were functioning bombs 
outside of Jewish targets in the Bronx neighborhood of Riverdale and 
additionally constructed plans to fire missiles at military transport 
planes at Stewart International Airport near Newburgh, NY. Suspect 
James Cromitie confided his desire to commit acts against the United 
States to a Federal informant in 2008 and aspired to travel to 
Afghanistan to become a martyr, and to join Pakistani extremist group 
Jaish-e-Mohammad. Cromitie recruited Onta Williams, David Williams IV, 
and Laguerre Payen to join him in the Riverdale attacks. By April 2009, 
the 4 targeted the Riverdale Temple and nearby Riverdale Jewish Center, 
and conducted surveillance at Stewart Airport. A Government informant 
supplied the group with an inert missile system and fake explosives. 
The group was arrested after they placed what they believed were 
functioning bombs outside of their Riverdale targets, convicted in 2010 
and subsequently sentenced to 25-year terms.
                          12. nyc subway plot
    In September 2009, the New York City subway system was targeted for 
attack by 3 individuals who planned to set off bombs in the subway 
during rush hour shortly after the eighth anniversary of 9/11. Once 
Queens residents Najibullah Zazi and Zarein Ahmedzay, of Afghan 
descent, and Bosnian Adis Medunjanin had self-radicalized largely 
through listening to on-line extremist material, including teachings by 
Anwar al-Awlaki. The trio plotted to travel to Afghanistan to fight 
alongside the Taliban against American and coalition forces, and said 
they were motivated by American actions against Muslim populations 
overseas. Although in Pakistan in late August 2008, Ahmedzay and 
Medunjanin were turned around by Pakistani security forces while trying 
to enter Afghanistan in a taxi. In looking for another approach, the 3 
canvassed mosques in Peshawar, Pakistan until they were put in contact 
with al-Qaeda representatives. They then traveled to tribal areas in 
North Waziristan, where they received terrorist training from high-
ranking members who urged their return to the United States to carry 
out an attack at home--a request to which they acquiesced. Zazi 
received further explosives training from al-Qaeda and the 3 returned 
to the United States separately. In January 2009, days after his return 
to the United States, Zazi moved to Aurora, CO where he began to 
experiment with explosives and eventually constructed the detonation 
charges for the bombs that were to be used by the trio in attacking the 
subway. He remained in contact with Ahmedzay and Medunjanin while in 
Colorado, and drove to New York from Aurora in early September 2009 
with the explosive charges in his vehicle.
    The plot was thwarted through an intelligence tip received by the 
FBI and with the cooperation of the NYPD through the Joint Terrorism 
Task Force. Zazi and Ahmedzay pleaded guilty in 2010 to conspiracy to 
use a weapon of mass of destruction; conspiracy to commit murder in a 
foreign country; and providing material support to a foreign terrorist 
organization; they are awaiting sentencing. Medunjanin was convicted in 
2012 of conspiring to use weapons of mass destruction, conspiring to 
commit murder of U.S. military personnel abroad, providing and 
conspiring to provide material support to al-Qaeda, receiving military 
training from al-Qaeda, conspiring and attempting to commit an act of 
terrorism transcending national boundaries, and using firearms and 
destructive devices in relation to these offenses. He was later 
sentenced to life.
                            13. times square
    Faisal Shahzad, a Pakistan-American residing in Connecticut, 
attempted to detonate a car bomb in Times Square on May 1, 2010. Like 
Vinas and the Zazi-trio before him, Shahzad received terrorist training 
in Pakistan's Waziristan region during a trip he made to the country 
from July 2009 until February 2010. The training was provided by the 
Tehrik-i-Taliban Pakistan (TTP), generally referred to as the Pakistani 
Taliban. Upon returning to the United States, Shahzad received $12,000 
in 2 separate payments from a TTP-associated co-conspirator to aid his 
plot. The bomb's failure to detonate had to do in large part with the 
inferior components Shahzad used; Shahzad was concerned that purchasing 
more effective ingredients as called for by his training would alert 
law enforcement. Shahzad was influenced, in part, by the teachings of 
Anwar al-Awlaki and in court, cited American foreign policy as a 
primary motivator for his actions. Cooperation between NYPD and the FBI 
led to his identification and arrest 53 hours after the attempted 
bombing, as he attempted to flee the country. Shahzad pleaded guilty to 
all charges against him and was sentenced to life in prison.
                        14. manhattan synagogue
    Ahmed Ferhani, a Queens resident born in Algeria, along with 
Mohammad Mamdouh, a Moroccan immigrant, were arrested in May 2011 in an 
NYPD operation in which Ferhani purchased a hand grenade, 3 semi-
automatic pistols, and ammunition from an undercover detective. NYPD's 
investigation into the pair revealed their desire to attack a synagogue 
in New York City. Ferhani was indicted under New York State's anti-
terrorism legislation and pleaded guilty in December 2012 to charges 
including conspiracy as a crime of terrorism and criminal possession of 
a weapon as a crime of terrorism. In his allocution, Ferhani stated 
that he agreed with Mamdouh to ``develop a plan to attack and damage a 
synagogue in New York County or elsewhere in New York City using 
explosives'' in an effort to coerce and intimidate the city's Jewish 
population. He further clarified that his motivation was to avenge the 
perceived mistreatment of Muslims worldwide. Ferhani was sentenced in 
March 2013 to 10 years in state prison after his guilty plea in 
December 2012 to terror-related charges for plotting to target New York 
synagogues. The case marks the first application of New York's terror 
laws in a terrorism case.
                    15. returning military targeted
    Jose Pimentel, a native of the Dominican Republic and convert to 
Islam, was charged with plotting to detonate bombs in and around New 
York City in November 2011. He used instructions on how to build a bomb 
published by al-Qaeda's Inspire magazine. After a 2\1/2\-year 
investigation by the NYPD Intelligence Bureau, Pimentel was caught 
while assembling 3 bombs. Pimentel's targets included members of the 
Armed Forces who were returning from service in Iraq and Afghanistan. 
He also considered traveling to Yemen to participate in terrorist 
training and claimed to have emailed radical Yemeni-American cleric 
Anwar al-Awlaki but received no response. However, Pimentel 
successfully corresponded with Jesse Morton, the founder of the website 
Revolution Muslim, who was sentenced in June 2012 to 11.5 years in 
prison for using the internet to solicit violence against individuals 
to include the writers of the popular TV-satire South Park. Pimentel 
pleaded guilty and on March 25, 2014 was sentenced to 16 years in State 
prison and 5 years of post-release supervision for constructing 
improvised explosive devices to detonate in Manhattan, with the intent 
to harm United States military personnel and civilians.
                          16. federal reserve
    Quazi Mohammad Rezwanul Ahsan Nafis, a native of Bangladesh who was 
residing in the United States on a student visa, was arrested in 
October 2012 as he attempted to remotely detonate what he believed was 
a bomb in front of the Federal Reserve Bank of New York in lower 
Manhattan. Nafis came to law enforcement's attention in July 2012 when 
he unknowingly tried to recruit a confidential Government source to aid 
in his plan to attack the United States at home. Nafis told the 
Government source that he had al-Qaeda contacts abroad that could 
assist in the planning and execution of an attack. Nafis also drafted 
an article he hoped would be published in al-Qaeda's Inspire magazine, 
in which he asserted his desire to ``destroy America'' by attacking its 
economy. Nafis pleaded guilty in February 2013 to attempting to use a 
weapon of mass destruction and was subsequently sentenced to 30 years 
in prison. The NYPD worked with the FBI in the case through the Joint 
Terrorism Task Force.
                         17. the brothers plot
    Raees Alam Qazi and Sheheryar Alam Qazi, Pakistan-born brothers 
from Florida, were arrested by Federal authorities in Florida in 
November 2012 for charges relating to a plan to bomb popular New York 
City landmarks including Times Square, Wall Street, and city theaters. 
Raees Qazi had traveled to New York allegedly to gain employment to 
finance the building of an explosive device and to select a target; he 
and his brother both were charged with conspiring to provide material 
support to terrorists and conspiring to use a weapon of mass 
destruction. Authorities searched Raees' home and found material and 
instructions related to the construction of an explosive device. Raees 
was reportedly seeking retribution for the deaths caused by drone 
strikes in Afghanistan. In March 2015, the Qazi brothers pleaded guilty 
in Federal court in Miami to 1 count of conspiring to provide support 
to terrorists and conspiring to assault 2 Federal employees. Raees Qazi 
pleaded guilty to an additional charge of attempting to provide 
material support to al-Qaeda. In June 2015, Raees and Sheheryar Qazi 
were sentenced to 35 and 20 years in prison respectively.
                           18. zale thompson
    On October 23, 2014, a 32-year-old resident of Queens named Zale 
Thompson attacked 4 rookie New York City police officers in Jamaica, 
Queens with a hatchet. Thompson ran at the men as they posed for a 
photograph, hitting 1 officer on the arm and another in the head before 
being shot and killed by the other officers. Thompson expressed a 
variety of grievances in the years and months leading up to the attack, 
including about incidents of alleged police brutality--particularly 
against African Americans. Through frequent social media posts, he also 
advocated for jihad and insurgency against the United States as a 
response to the plight of Muslims globally. His social media activity 
and internet searches became increasingly consumed by jihadist 
propaganda in the days prior to his attack, as he frequented websites 
associated with al-Qaeda and the Islamic State of Iraq in the Levant 
(ISIL), and viewed articles discussing ISIL's beheadings of hostages. 
ISIL has lionized Thompson in 2 issues of its English-language 
magazine, Dabiq, as an exemplar for lone-wolf attackers.
                  19. asia siddiqui & noelle velentzas
    In April 2015, Queens residents Asia Siddiqui and Noelle Velentzas 
were arrested and charged with conspiracy to use weapons of mass 
destruction as well as other terrorism-related offenses following a 
joint investigation by the NYPD Intelligence Bureau and FBI. The 
defendants are alleged to have researched the construction of various 
types of explosives devices, including the car bomb used in the 1993 
World Trade Center bombing and pressure-cooker bombs such as those used 
in the 2013 Boston Marathon attacks; they also allegedly acquired some 
of the components to construct explosive devices, including propane 
tanks. The complaint charges that the defendants, who allegedly made 
statements backing violent jihad and supporting the Islamic State of 
Iraq and the Levant (ISIL), sought to detonate explosive devices here 
at home. The 2 pleaded not guilty in May 2015; their case is still 
pending.
                   20. aspiring isil foreign fighters
    In June 2015, following an FBI investigation, Queens resident 
Munther Saleh and Staten Island resident Fareed Mumuni were arrested 
for allegedly seeking to carry out an attack with pressure-cooker bombs 
on behalf of the Islamic State of Iraq and the Levant (ISIL) prior to 
joining the group overseas with other alleged co-conspirators, 
including New Jersey residents Samuel Topaz and Alaa Saadeh, who were 
also arrested. According to the criminal complaint, Saleh researched 
information about the construction of a pressure-cooker bomb and viewed 
images of various New York City landmarks and tourist attractions. 
Prior to their arrests, Saleh and Mumuni allegedly attempted to attack 
law enforcement officers before being subdued.

    Mr. Donovan. Mr. Mayor, thank you for your insightful 
testimony, and I can't agree with you more. I would also like 
to publicly commend you for the team that you put together that 
protects our city every day, Police Commissioner Bill Bratton, 
Fire Commissioner Danny Nigro, and my good friend, who 
accompanied you down here today, Joe Esposito, the head of OEM. 
So thank you for that.
    Mr. de Blasio. Thank you.
    Mr. Donovan. I now recognize myself for 5 minutes for 
questions.
    Mayor de Blasio, as I mentioned in my opening statement, we 
have heard several reasons for the proposed cuts, one of which 
was the amount of money that has yet to be spent in prior 
funding cycles. Can you talk about the money that is in the 
pipeline and how, while it may not have yet been spent and 
drawn down, that money has already been obligated for various 
projects that are vital for your efforts to secure our city.
    Mr. de Blasio. Well, that is exactly right, Mr. Chairman. 
Remembering that we are now seeing more threats than ever 
before and more complicated ones, we continue to innovate. This 
has been something that all our agencies do, and Commissioner 
Bratton is particularly well-known for constantly creating the 
concept of innovation in all we do in the NYPD, particularly in 
our counterterror work. That is why we came up with a new 
specially-trained, specially-armed counterterrorism group, the 
Critical Response Command. No city in America has such a 
developed apparatus at this point, and we need it because we 
are the No. 1 terror target.
    But the simple answer to your question is: All dollars that 
have been provided are in the process of being spent. They have 
been obligated, as you said. We all know that the process of 
actually acquiring equipment, for example, requires a number of 
steps. We have to very carefully follow those steps under 
Federal guidelines, and we do. But that often takes several 
years to be done properly.
    Every dollar is being spent and being spent on the kind of 
things that will prevent terror. Remember, our first mission, 
of course, is to prevent terror. NYPD has done that 
successfully now for 15 straight years, warded off those 20 
attacks I mentioned.
    But we also know if, God forbid, there was an instance of a 
terrorist attack, our job is to contain it and minimize it. 
That is why we put such an emphasis on the active-shooter 
training, on technology that would allow the fastest alert 
possible to our officers so they could intervene. We need to 
keep making those investments so we are prepared. But the 
bottom line is every dollar that has been allocated in the past 
has been obligated, is being spent effectively.
    Mr. Donovan. Thank you, Mayor.
    Commissioner Bratton has estimated that these cuts would 
cost an approximate amount of $90 million reduction for the 
funding to New York City for the police department. Could you 
explain to the committee, what are some of the capabilities 
that the New York City Police Department would no longer be 
able to fund in the absence of the grant funding that is being 
proposed now?
    Mr. de Blasio. Absolutely, Mr. Chairman.
    We have a substantial domain awareness system, but we need 
to keep building on it as the threats intensify. If we did not 
have this funding, we would not be able to build out that 
domain awareness system further. We do have some explosive 
detection equipment, but, again, we need to add to that 
capacity.
    One example I need to offer, in addition to all the other 
reasons why New York City is a target and why New York City is 
a challenging environment to protect and police, we just 
announced this week that we expect over 59 million tourists in 
the course of this year. It would be an all-time record. The 
amount of traffic, the amount of human intensity that happens 
on the streets of New York City every single day requires 
constant vigilance, and we need the technology to allow us to 
look for any and all threats.
    Finally, I would say, you know that as the area around the 
World Trade Center has come back to full life and economic 
vitality, and that is growing every day, we know that that 
site, sadly, remains a particular target of interest for 
terrorist forces. We need to add additional vehicle screening 
in that area. We would not be able to do that without the funds 
that we have traditionally received from UASI.
    Mr. Donovan. Wonderful. Thank you, Mayor.
    My time is running out, so let me just ask one final 
question: Secretary Johnson is testifying before our full 
committee tomorrow on the Department of Homeland Security's 
budget for fiscal year 2017. What message do you have for the 
Secretary about any proposed cuts?
    Mr. de Blasio. I will be seeing the Secretary later today. 
I have immense respect for him. He has been a great partner. 
But my message is we cannot protect New York City sufficiently 
without this funding. I believe it is a fair National priority 
to protect our largest city and a city that is so central to 
our National life.
    I would say to him that we in New York City invest heavily 
in counterterrorism ourselves. For every dollar we receive from 
the Federal Government, we spend one of our own dollars as 
well. We spend the taxpayers' dollars of our city to protect 
our people and all the people who visit, those 60 million 
tourists, the 3 million people or so coming to town each day to 
work during the week. We are definitely going to be shouldering 
a big share of the burden, but we need our Federal partners to 
take their part in this effort to protect.
    Mr. Donovan. Thank you, Mr. Mayor.
    My time is expired. The Chair now recognizes the gentleman 
from New Jersey, Mr. Payne, for questions.
    Mr. Payne. Thank you, Mr. Chair.
    Mayor de Blasio, New York City has benefitted from 
significant homeland security grant investments, and rightfully 
so. What is your biggest fear if those programs are slashed?
    Mr. de Blasio. My fear is we fall behind, Congressman. We 
have, over the last 15 years, since that horrible day of 9/11, 
innovated an approach to fighting terror, to preventing it 
before it happens. It has become a very refined approach and a 
very successful approach. It requires a close coordination of 
all of our city agencies, police, fire, emergency management, 
health, and others, but also close partnership with the Federal 
Government. I have to say, I think it is at an all-time high in 
terms of close cooperation and collaboration with FBI, Homeland 
Security, et cetera.
    But I think there is a phrase we use in New York City that 
describes the situation: ``If it ain't broke, don't fix it.'' 
So far we have succeeded in preventing terror on a consistent 
basis.
    Mr. Payne. Absolutely.
    Mr. de Blasio. But as we saw in Paris, as we saw in San 
Bernardino, the challenges are greater. That is why we created 
a stand-alone counterterror apparatus, and why we need ever 
more commitment to technology and to a more refined approach. 
If the bottom drops out of that, if the leg is taken out of the 
stool and we are no longer able to invest in improving our 
approach, sadly, we will be creating vulnerability.
    So Congressman, I would say, if one day we believe that the 
terror threats around the world are actually declining, well, 
that would be a glorious day where we could talk about the 
opportunity to reduce spending. But unfortunately, right now, 
those threats are increasing. They are becoming more 
complicated. Law enforcement is challenged to keep up with the 
capacity of terrorist organizations and their use of 
technology, which is one of the areas we most need to combat 
them with.
    So I would argue, we cannot perform that role or engage in 
that fight against terror effectively without this funding.
    Mr. Payne. Thank you.
    Also, the fiscal year 2017 budget request cuts UASI and the 
State Homeland Security Grant Program collectively by over $.5 
billion. Port and transit security grants would also be cut. 
There is no question that those programs yield real security 
benefits. Meanwhile, the budget requests $49 million for 
counter violent extremism grants, though we have no idea what 
the program will look like or what benefit it will provide.
    In light of these uncertainties, what activities do you 
think CVE grants should support, and how can these programs be 
carried out in a way that avoids profiling?
    Mr. de Blasio. Thank you for the question, Congressman.
    We do support the notion of the countering violent 
extremism program. We believe that it is more important than 
ever for government at all levels to engage all communities, 
build partnerships, share information, create an atmosphere 
that is more positive and hopeful than it may have been in the 
past.
    We do not support profiling of any form. As you know, we 
have changed the policies of the previous administration to 
both more effectively police--because we do not believe those 
policies were the best way to counter terror--but also because 
if we create inadvertently a rift with any of our communities, 
it actually impedes the flow of information from the 
grassroots.
    So I want to make sure it is understood, we feel this about 
all communities because there is different types of challenges 
and threats and different types of violence that could emanate 
from a variety of communities. But the common link is establish 
deeper communication and respect, bring law enforcement and 
community closer together, don't create a rift, and figure out 
other things we have to do through Government, whether it is in 
terms of education or efforts directed at young people to lift 
them up that actually increase the security of everyone.
    So that core philosophy we believe in, like you, we look 
forward to more elaboration of the concept from the Federal 
Government, but we believe in the philosophy.
    Mr. Payne. Okay. Thank you.
    I had another question, but in interest of time, I will 
yield back and hopefully we have another opportunity to ask 
questions.
    Mr. Donovan. The gentleman yields back.
    The Chair will now recognize other Members of the 
subcommittee for questions they may wish to ask the witness. In 
accordance with committee rules and practice, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in later will be 
recognized in the order they arrive.
    The Chair now recognizes the gentleman from New York, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    Again, Mayor, thank you for your testimony here today. As 
someone who was born and raised in New York City, my father was 
in the NYPD for over 30 years, I really tremendously admire the 
work that is done by all of the agencies, especially NYPD 
emergency management, my good friend Joe Esposito there; FDNY, 
Lieutenant Nigro. The job that you have is one which I don't 
think any of us envy. Maybe it is great to march in the 
parades, but other than that it's, you know, a lot of abuse and 
a lot of attention.
    Even though Miss Rice and I represent Long Island, the fact 
is, people should realize that Nassau and Suffolk Counties, as 
well as Westchester are all part of the UASI. It is New York 
City, Nassau, Suffolk, Westchester, even parts of Rockland, and 
also, we have to closely coordinate with northern New Jersey. 
Whenever you go to any of the mock drills they have, you see 
how much coordination is involved.
    Also, as you said, New York City and the region, New York 
City region is the No. 1 target in the country. It is important 
for the rest of the country to realize the tremendous expense 
involved in that. I mean, you have well over 1,000 police 
officers working full time in various types of 
counterterrorism. They also work with the State police, Nassau 
and Suffolk police, working with the FBI and the JTTF, and it 
is a constant, really, state of war almost, at least a state of 
preventing a war. So any cuts at all really can be catastrophic 
to New Yorkers.
    I have been on this committee since the start, and I don't 
think there is any one method or any one line of defense that 
is going to stop an attack. What you need are multiple defenses 
out there, and you certainly train and hope that at least one 
of those is going to work, is going to stop the next attackers. 
You don't know where it is going to be coming from; it could be 
Times Square; it could be the Brooklyn Bridge; it could be the 
subway system; it could be anywhere.
    So I just think all of us on the committee should stand as 
one, not as Republicans or Democrats or from New York or from 
the rest of the country, realizing how vital this is that the 
funding be continued. Also, I think it is important to realize 
that the NYPD or the FDNY or emergency management, when they 
are out there doing the job, that is really not a New York City 
function. That is the Federal Government's responsibility to 
protect local governments and local municipalities from being 
attacked. That is a Federal responsibility.
    So if you are carrying out a Federal responsibility, at the 
very least you should be compensated for the work that you do. 
This isn't a gift. This isn't charity you are getting. I mean, 
you are doing the work that the Federal Government should be 
doing. The fact is, you are better equipped to do it in many 
ways.
    But, again, to be shortchanging you at a time like this, 
when the ISIS threats have never been greater, when we still 
have al-Qaeda, we still have al-Qaeda in the Arabian Peninsula, 
and we have the self-starters. We have the people at home 
sitting in their apartment with the computer who, you know, can 
become radicalized.
    So I am just going to give you the opportunity to expand on 
how essential it is that all of the city departments and the 
neighboring locales receive the funding they need on homeland 
security.
    Mr. de Blasio. Thank you very much, Congressman.
    Congressman, let me also thank you at the outset, and all 
of your colleagues. I know you played a particularly crucial 
role in finally passing the Zadroga Act. I want to thank you 
for first responders in New York and all over America and so 
many people who were affected by 9/11. That was such a profound 
victory. Thank you for your leadership.
    Mr. King. Thank you, Mayor.
    Mr. de Blasio. You said it perfectly in that every single 
one of our officers at any given moment any day could be 
involved in counterterrorism activity. That means being aware 
that the smallest clue could lead to something much bigger, and 
that is why we put a big emphasis on training. So all of our 
officers are being trained to prepare for a variety of 
scenarios. That is why we need the active-shooter training, 
because instantly there may be a crisis. It is also why we 
emphasize technology, that now we are able with resources that 
we provide at a local level to, for example, put a description 
of a terrorist, an individual, out to all 36,000 officers 
instantly and now they are all at that moment looking for that 
individual. Or, again, an officer may see something on the 
ground that indicates the potential of a threat that then 
alerts everyone else to go into action.
    So because we have been hit, we don't see this as an 
abstraction. We feel it very personally. We know this threat is 
very real because 20 times threats were attempted against us. 
We know that every one of our officers has to be vigilant at 
all times. So we will always pay our fair share, but I agree 
with your core point. For the Federal Government to step back 
and create a situation where a locality can't do all that is 
needed to protect against terror makes no sense at this moment 
in history.
    It is such a pervasive threat that literally every one of 
our officers--and that extends, of course, to emergency 
management and fire as well--knows at any given moment they 
have to be involved not only in preventing but, God forbid, 
responding to an incident.
    Mr. King. Mr. Mayor, my time is expired. I just would like 
to add, I want to make sure we maintain the unity here today. I 
do have some differences with you and Mr. Payne on the whole 
issue of policing. But, again, you guys are doing a great job. 
Today is not the day to bring that up. I just want to again 
thank you for what is happening. Let's stay united today. We 
worked together on other issues. We will do it on this. I just 
want to put that on the record.
    Mr. de Blasio. I thank you. My door is always open, 
Congressman.
    Mr. King. I know that as well. Thank you, Mayor. Thank you 
very much.
    Mr. Donovan. Thank you, Mr. King.
    The Chair now recognizes the Congresswoman from New York, 
Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    I just want to echo what my colleague Pete King just said. 
I think it is very clear the Federal Government is responsible 
for protecting the homeland. New York City is the prime target 
in the homeland, and it is really that simple.
    So as someone who, like Pete, you know, whose district we 
share a border with the city, and as a former homicide 
prosecutor in Brooklyn, I just want to extend this committee's 
full appreciation to you, Mr. Mayor, and to Commissioner 
Bratton and the men and women of the NYPD. You have done an 
extraordinary job making the city safer under your watch, and 
that is a good thing for all of our nearby communities and for 
me personally, and for all of the members of the NYPD who 
happen to reside out on Long Island and in our district.
    So I want to ask a question that I think goes to security 
both in the city and locally in my district. I am talking about 
the on-going dispute between Apple and the Justice Department. 
I am troubled mostly by what I see as the unfortunately narrow 
stance that has emerged in what is and should be a complex 
debate.
    As someone who cares more than anything about our security 
but also values deeply the privacy protections that allow us to 
live safely in the digital age, I wonder if the entrenched 
nature of this debate really does it justice. Does one side 
have to win and one side have to lose? Do we have to choose 
between being digitally safe or physically safe? Just your 
thoughts on that, Mr. Mayor.
    Mr. de Blasio. Congresswoman, I think that is a fantastic 
question because I agree with you 100 percent. I think 
something has been missed here in this discussion. The 
companies involved, Apple and others, and their customers 
understandably want to protect their privacy, and that is an 
American value too.
    But I have to say, I couldn't agree more with Director 
Comey and Commissioner Bratton and others who have said that if 
law enforcement doesn't have appropriate information to pursue 
terror threats and other violent crime, of course people will 
be literally physically endangered. So we can't have these two 
polar opposite sides staring at each other and not resolving 
the problem.
    What I hope there can be found is a third way, if you will, 
wherein the Government has access to the information in a way 
that is provided voluntarily by these companies, obviously 
always with a court order and appropriate judicial process.
    But I think the companies do owe it to the Nation to come 
up with a procedure for providing that information to law 
enforcement. I respect that they have some limitations that 
they are concerned about. I believe there is a reasonable 
process that can be determined to make sure that no piece of 
information that could stop violence is ever withheld, but at 
the same time respect privacy rights.
    I believe there is a compromise that could be struck. I 
think it begins with the company stating their willingness to 
break out of the current paradigm and agree that they do have 
more power to help law enforcement, that it does not implicitly 
mean that they would be giving up privacy standards.
    So that is what I hope we can all work on together, is a 
different approach that gets us to that very simple end goal, 
preventing violence.
    Miss Rice. Couldn't agree with you more. The Chairman, one 
of our former colleagues, Cy Vance, came down here a year ago 
talking about just this whole encryption issue and what an 
obstacle it is to law enforcement, which is particularly 
problematic just given the daily threats that we face.
    Just to go back to the money, so we are all talking about 
how much of a cut has been proposed. In a perfect world, what 
would you be asking for if the funds were--well, I shouldn't 
say the funds were unlimited because they are not, but maintain 
the status quo. Is that enough? Would you ask for an increase? 
Slight? Big? Give us some perspective.
    Mr. de Blasio. Look, I will state the obvious: The first is 
to protect the consistent funding we have received, because we 
have depended on it. We have bluntly assumed it would be 
consistent given the environment we are all working in. I think 
we clearly want to go farther and continue to innovate. I 
talked to you about some of the areas that we need to do more 
on in terms of technology, for example.
    So additional resources would help us do better. It is as 
simple as that. We want to continue this extraordinary work of 
preventing terrorists. It is in the interest of the entire 
Nation. So clearly, more resources would mean more technology, 
more training, more ability to stop terror, but at minimum, 
keeping consistent with previous funding.
    I also want to say on the previous point, I thank you for 
standing up on the issue of the information that law 
enforcement needs. You understand as a former prosecutor. But I 
do ask of you and your colleagues, please stand up for all of 
us at the local level who are trying to prevent violence and 
stand up for law enforcement. I would like to believe this 
would be an area of bipartisan consensus. Let's work together 
to help those companies find an outcome that they can live with 
but that still prevents violence.
    Miss Rice. Agreed. Thank you very much, Mr. Mayor.
    I yield back.
    Mr. Donovan. The gentlewoman yields back.
    My colleague, Ranking Member Payne, had another question 
if, Mayor, you have time to entertain.
    Mr. de Blasio. Of course. Yes.
    Mr. Donovan. Thank you.
    Mr. Payne. Thank you, Mr. Chairman.
    Mayor de Blasio, I know that this isn't an issue 
specifically within the scope of today's hearing, but I believe 
that it is related. First responders in my district, as well in 
New York, rely on T-band spectrum for radio communications. 
Unfortunately, the legislation that authorized FirstNet 
requires eleven jurisdictions, including ours, to relinquish 
the spectrum by 2023, unless Congress acts to extend the 
deadline.
    Can you share some of the concerns New York City's first 
responders have about their emergency communication 
capabilities in light of the deadline and the associated cost 
of transitioning off the T-band?
    Mr. de Blasio. Thank you, Congressman. Yes, I share your 
view. T-band is a critical part of the work we do in terms of 
emergency communications. Disrupting that reality could prove 
to be very dangerous.
    We have, as you know, a very highly-developed apparatus in 
New York City to protect our people and protect, again, the 60 
million people who visit every year. It has to do with a number 
of agencies constantly working together in a very crowded, 
complex environment. The current communications structure 
allows us to do that work.
    If Congress doesn't act and we have to relinquish the 
current approach, we fear a situation that is really 
disruptive. I think this is a case where there should be real 
care taken to not upset something that is working currently. We 
all appreciate innovation. We all appreciate opportunities to 
do things differently, but not if they undermine something that 
is working currently and don't replace it in an appropriate 
manner.
    So right now, I would ask that, with your support, ask that 
the Congress act to reverse the T-band give-back, because we do 
fear the consequences otherwise.
    Mr. Payne. Absolutely. You know, we talk about supporting 
our first responders and then we find circumstances, situations 
where something like this potentially could occur. I mean, we 
have a saying in Newark: ``If you are going to be about it, 
stay about it.'' So to change and disrupt that is very 
troubling. So we want to continue to support our first 
responders. We expect a lot of them and they do the job, and so 
we need to give them the support they deserve.
    Thank you.
    Mr. de Blasio. Thank you very much.
    Mr. Donovan. Mr. Mayor, I want to thank you for your 
valuable testimony and for clarifying for the Members of this 
committee the hollow excuses of the administration that there 
is $600 million that New York City hasn't spent. I guess the 
administration doesn't know about bidding process, VENDEXing, 
and everything else that we have to do back home to assure that 
the quality of the product we are purchasing and the 
preparation and the training that we need takes time.
    As one of the 8.5 million people who lives in the city that 
you lead, I thank you for all you are doing to protect me and 
my family.
    Mr. King. Mr. Chairman, could I make one final statement?
    Mr. Donovan. You sure can. You are my mentor. You can.
    Mr. King. Mayor, you generously gave me credit for being 
involved in the Zadroga 9/11 Act. Miss Rice was also involved. 
But I know you think Dan Donovan is such a nice guy. As soon as 
that bill was passed, he said, King, you were here for 14 
years, you couldn't get it done. He was here 4 months and it 
passed. So he is taking all the credit for Zadroga. I think 
that should be on the record.
    Mr. Donovan. I would have arrived earlier if I knew he 
needed the help, Mayor.
    Mr. de Blasio. That is right. You just should have asked, 
right.
    Thank you, Congressman.
    Chairman, thank you for your very generous statement. I 
just want to thank you for your leadership. As I said, it is 
essential to the people of New York City that you are in this 
role, and obviously, for all the people of this country. I want 
to thank you for your leadership.
    Mr. Donovan. Thank you, Mayor.
    This panel is dismissed. The clerk will prepare the witness 
table for the second panel.
    Again, we thank you, Mr. Mayor, for all of your 
participation in this hearing.
    Mr. de Blasio. Thank you.
    [Recess.]
    Mr. Donovan. I would like to welcome our second panel to 
today's hearing and thank them for their participation.
    Mr. Jim Butterworth serves as the director of the Georgia 
Emergency Management Agency/Homeland Security, a position which 
he was appointed to in January 2015. Prior to his appointment, 
Mr. Butterworth served for 4 years as the adjutant general of 
Georgia. Previously, he served as a State Senator representing 
the 50th District in northeast Georgia. Mr. Butterworth is 
testifying on behalf of the National Emergency Management 
Association.
    Welcome, sir.
    Mr. Butterworth. Thank you, sir.
    Mr. Donovan. Chief Rhoda Mae Kerr serves as the fire chief 
of the Austin Fire Department and previously served in the same 
position with the city of Little Rock, Arkansas. She was also 
the deputy fire chief in Fort Lauderdale, Florida. Chief Kerr 
is the president and chair of the board of directors of the 
International Association of Fire Chiefs, and she is testifying 
in that capacity today.
    Welcome, Chief.
    Chief Kerr. Thank you.
    Mr. Donovan. George Turner was appointed as the 23rd chief 
of police for the city of Atlanta on July 9, 2010. He is a 32-
year veteran of the Atlanta Police Department and has worked in 
all areas of the department, including the uniformed division 
and investigations. Chief Turner previously served as the 
deputy chief of the support services division, which consists 
of the corporate services section, 9/11 communications center, 
information services section, and training academy. Chief 
Turner also serves as the second vice president of the Major 
Cities Chiefs Association, and he is testifying in that 
capacity today.
    Welcome, Chief.
    Mike Sena is the director of the Northern California 
Regional Intelligence Center, the fusion center in the San 
Francisco Bay Area. He currently serves as the president of the 
National Fusion Center Association, which represents the 78 
State and locally-owned and -operated fusion centers across the 
country. Mr. Sena is testifying on behalf of the National 
Fusion Center Association.
    Welcome, sir.
    Mr. Sena. Thank you.
    Mr. Donovan. I now yield to the Ranking Member to introduce 
our final witness.
    Mr. Payne. Thank you, Mr. Chairman.
    It is my pleasure today to welcome Sergeant Greg Kierce, 
who serves as Jersey City's director of Office of Emergency 
Management and Homeland Security. Sergeant Kierce's 
professional background encompasses more than 30 years of law 
enforcement. He maintains a successful record of achieving law 
enforcement objectives, including reduced crime, greater public 
safety and security, and stronger relationships with the local 
community. He has demonstrated a proven ability to lead, coach, 
and direct law enforcement professionals to maximize the 
productivity and enhance workplace efficiency through process 
improvement.
    I want to thank you for the time that you have allowed us 
to have you come down here before the subcommittee, and I look 
forward to your testimony.
    Mr. Chairman, just before I yield back, for full 
disclosure, there is a possibility that Chief Kerr taught me to 
swim as a child at Camp Kiamesha back in New Jersey. So I just 
wanted to put that on the record. I yield back.
    Mr. Donovan. The gentleman yields back.
    Chief, we are not going to hold you to his inability to 
swim.
    Welcome, Sergeant.
    Thank you, Mr. Payne.
    The Chair now recognizes Mr. Butterworth for 5 minutes.

 STATEMENT OF JIM BUTTERWORTH, DIRECTOR, EMERGENCY MANAGEMENT 
   AGENCY/HOMELAND SECURITY, STATE OF GEORGIA, TESTIFYING ON 
    BEHALF OF THE NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Butterworth. Thank you. Mr. Chairman, Ranking Member 
Payne, and distinguished Members of the subcommittee, my name 
is Jim Butterworth, and I am the director of the Georgia 
Emergency Management Agency and Office of Homeland Security. I 
am also the homeland security advisor to Governor Nathan Deal.
    I am here on behalf of the National Emergency Management 
Agency or NEMA. I appreciate the opportunity to come before you 
today to discuss FEMA preparedness grants and the specific 
impact proposed cuts in the fiscal year 2017 budget could have 
on States across the country.
    As stated, the administration's fiscal year 2017 budget 
proposals include significant cuts to many of FEMA's grant 
programs that support State and local disaster response. These 
grants have been used to enact many programs that did not 
previously exist in the scale needed, if at all, to address the 
new and ever-changing threats facing our Nation. It is 
impossible to imagine a scenario in which the significant 
proposed cuts do not affect the operational capabilities at the 
State and local level.
    The threat of terror attacks here in the United States 
continues to evolve and increase. Chattanooga, Fort Hood, 
Boston, and now San Bernardino, all illustrate the need for 
continued investments. The growing number of novel events that 
can take unexpected turns has prompted greater involvement by 
emergency management for its capability, experience, and 
flexibility to deal with issues as they emerge. While the 
country has made significant strides in our understanding of 
and preparedness for these events, this is not the time to 
scale back these efforts.
    In Georgia, State homeland security grants have been 
utilized to develop and grow specialized programs, fund 
training and exercise, and build equipment caches that were 
beyond the reach of State and local governments to fund in 
traditional methods.
    I have included several examples in my written testimony 
that illustrate the numerous programs that have been 
implemented in my State with support from these grants. These 
are only a small portion of the resources within Georgia that 
rely on homeland security grant funds for continued funding to 
maintain and sustain the capability that has been built in our 
State.
    The issue we now face is that beginning with the decline 
seen in fiscal year 2011 cycle, many of the programs that once 
received annual funding are now only receiving funding on a 
rotating basis, roughly every 2 or 3 years. If funding were to 
drop further below their current levels, as they do in the 
current proposed President's budget, we would begin to see a 
contraction in the needed capability we have been able to 
achieve in Georgia.
    In addition to the proposed cuts to the State homeland 
security grants, Georgia, like many States, would also feel the 
effects of the reduction of funds provided through the Urban 
Area Security Initiative, as has been discussed already.
    GEMA/Homeland Security works in close conjunction with the 
Metro Atlanta, UASI, and the separate but critical funding 
allotment they receive allows GEMA/Homeland Security to 
leverage more of a traditional State homeland security grant 
funding to the benefit of lesser at-risk, yet still critical 
cities and regions across the State, multiplying the 
effectiveness of both grant programs in enhancing the 
capability of both urban and suburban public safety.
    Three final points I would like to make: First, impacts to 
response and recovery capabilities do not stop at a State's 
border. Through mutual aid facilitated by the Emergency 
Management Assistance Compact, or EMAC, any decrease in funding 
reverberates across the Nation. This year, the administration 
proposes a 56 percent cut to the very platform that supports 
the sharing of resources across the Nation in times of crisis.
    Using EMAC, much of the assets and capability built with 
homeland security grant funding is readily deployable to 
support emergency or disaster operations throughout the 
country. Funded at $2 million, this system saves the Government 
money and is the backbone of a truly National response and 
recovery network.
    We truly appreciate the administration's support for a 
fully-funded emergency management performance grant program. 
EMPG is the only source of Federal funding directed to State 
and local governments for planning, training, exercises, and 
key professional expertise for all-hazards emergency 
preparedness. EMPG stands as the beacon of Congressional 
commitment to ensuring communities and States are more ready to 
prepare, mitigate, respond, and recover from any number of 
emergencies and disasters.
    Last, Federal funding for homeland security grant programs 
has decreased by more than 75 percent since the program's 
inception in 2003, yet the structure remains unchanged. 
Declining budgets at all levels of government have increased 
the need to leverage resources and to facilitate cross-
jurisdictional coordination. We can no longer afford to operate 
in separate silos. Given these on-going challenges and the 
current fiscal environment, the need for reform of these 
preparedness grants has never been more urgent.
    Again, I appreciate the opportunity to address these 
critical issues in the emergency management community. It 
speaks volumes that your first hearing as Chairman of the 
subcommittee would be dedicated to the critical fiscal 
challenges facing the emergency management and homeland 
security community in these uncertain times.
    Thank you for the opportunity to be here and to testify 
before the committee.
    [The prepared statement of Mr. Butterworth follows:]
                 Prepared Statement of Jim Butterworth
                             March 15, 2016
                              introduction
    Thank you, Mr. Chairman, Ranking Member Payne, and distinguished 
Members of the subcommittee. Mr. Chairman, I do want to take a moment 
to congratulate you on your new position on the subcommittee and thank 
Representative McSally for her commitment to emergency management and 
public safety. We are looking forward to working with you in this new 
capacity.
    As stated, my name is Jim Butterworth, and I am the director of the 
Georgia Emergency Management Agency/Homeland Security. I am here on 
behalf of the National Emergency Management Association (NEMA), which 
represents the State emergency management directors of the 50 States, 
territories, and District of Columbia. NEMA's members, many of whom, 
like me, also serve as Homeland Security Advisors, are prepared to deal 
with an ever-changing and increasingly complex set of challenges that 
test traditional approaches to natural and man-made disasters. I 
appreciate the chance to come before you today to discuss FEMA 
Preparedness Grants at large and the specific impact proposed cuts in 
the fiscal year 2017 budget could have on States across the country.
               proposed cuts threaten progress since 9/11
    In early February, the administration's fiscal year 2017 budget 
proposal was released and was met with concern from State, Tribal, and 
local emergency managers and homeland security officials. Significant 
cuts are proposed to vital FEMA Preparedness Grants. Overall, these 
programs would see a cut of 44 percent below fiscal year 2016 enacted 
levels. The Urban Area Security Initiative (UASI) Program would be cut 
by 45 percent, from $600 million for fiscal year 2016 to $330 million 
in fiscal year 2017. The State Homeland Security Grant Program (SHSGP) 
would be cut by 57 percent, from $467 million to $200 million. Public 
Transportation Security Assistance would be cut by 15 percent to 
$85,000 next year while Port Security grants are cut by 7 percent to 
$93 million. It is impossible to imagine a scenario in which those 
cuts, as significant as they are, do not, over time, affect the 
operational capabilities at the State and local level.
    The proposed cuts are incongruous with the current threat 
environment. The threat of terror attacks here in the United States 
continue to evolve and increase. While the country has made significant 
strides in our understanding of and preparedness for these events, this 
isn't the time to scale back those efforts. Chattanooga, Fort Hood, 
Boston, and now San Bernardino all illustrate the need for continued 
investments in strategic priorities. The Department of Homeland 
Security recognized the need for funding aimed at addressing CVE and 
coordinated/complex terror attacks through a new grant program funding 
in the fiscal year 2016 Omnibus. By proposing similar funding in 2017, 
it is clear this investment is not a fleeting effort and we are looking 
forward to engaging with DHS and FEMA to better understand how that 
funding will be distributed, what will be eligible, and how success 
will be measured.
    Emergency managers today, at all levels, must be prepared to deal 
with an ever-changing and increasingly complex set of challenges that 
test traditional approaches to disaster and emergency preparedness and 
response. The growing number of novel events that can take unexpected 
turns has prompted greater involvement by emergency management for its 
capability, experience, and flexibility to deal with issues as they 
emerge. Regardless of the amount of funding you push towards new 
priorities, however, the systems, structures, personnel, and 
capabilities built and sustained through years of dedicated investments 
must not be neglected.
Homeland Security Grant Program
    Since the inception of the State Homeland Security Grant Program 
(SHSGP), NEMA has maintained support of these grants as critical 
resources to help State and local governments build and sustain 
capabilities to address various threats and hazards. As FEMA describes 
it, this grant program plays an important role in the implementation of 
the National Preparedness System (NPS) by supporting the building, 
sustainment, and delivery of core capabilities essential to achieving 
the National Preparedness Goal (NPG) of a secure and resilient Nation.
    With the introduction and evolution of the Threat Hazard 
Identification and Risk Assessment (THIRA) process, States are becoming 
increasingly aware of their risks and creating partnerships with all 
critical stakeholders involved in addressing these challenges. As the 
risk assessment process improves, measuring progress towards common 
goals improves as well. The current process isn't perfect and the 
National Preparedness Report will continue to be refined over time.
    In Georgia, SHSGP is crucial in supporting investments that help us 
in reaching the NPG and that have now been recognized as best-practice 
activities. The challenge we now face is ensuring these programs are 
funded at a level that allows them to continue to serve and protect the 
State as threats to homeland security and critical infrastructure 
increase and evolve. This challenge is only compounded by the dramatic 
decrease in SHSGP funds the State now receives compared to past years. 
Our funding for fiscal year 2015 is more than an 87 percent decrease 
from the amount ($54 million) we received in the highest year of 
funding. The following are an example of programs in Georgia that 
utilized the SHSGP funding over several grant cycles to enact many 
needed and noteworthy programs that did not previously exist in the 
scale needed, if at all, to address the new threats facing our Nation:
  <bullet> Fifteen multi-jurisdictional regional Urban Search and 
        Rescue (USAR) teams, which give State-wide coverage for 
        complicated technical rescues (ex: collapsed buildings and 
        structures, wide-spread building and dwelling damage response), 
        and provide command-and-control capability of disaster response 
        assets for large-scale natural disasters or terroristic 
        activity.
  <bullet> Eight K-9 teams that assist in the recovery of the remains 
        of those who die in natural disasters or terrorist events.
  <bullet> Nine law enforcement teams that are trained and equipped to 
        respond to an event where the involvement of chemical, 
        biological, radiological, nuclear, or explosives (CBRNE) would 
        bar unprotected law enforcement from entering the scene.
  <bullet> 52 Hazardous Materials Response Teams (HAZMAT) that enable 
        local fire departments to detect, safely respond to, and 
        rapidly mitigate extraordinary chemical events.
  <bullet> 16 Bomb Disposal Units (BDU) and Explosive Ordnance Disposal 
        (EOD) response teams, to handle the rapidly-increasing threat 
        of bomb and explosive attacks across the State.
  <bullet> 41 Bomb Dog Teams, to enable schools, colleges, Government 
        buildings and special events to be safely checked and rapidly 
        cleared of suspected explosives.
  <bullet> Logistical support for the Georgia Information Sharing and 
        Analysis Center (GISAC) facility, along with salary and IT 
        support for 5 terrorism analysts and 2 Homeland Security 
        Information Network (HSIN) coordinators.
  <bullet> 19 jurisdictions in the Georgia Terrorism Information 
        Program (GTIP) program, that enables local law enforcement in 
        the highest-threat urban areas of the State to communicate and 
        collaborate on terrorist threat activity.
  <bullet> Critical Infrastructure and Key Resources (CI/KR) Protection 
        Team--a small team of GEMA/HS employees dedicated to providing 
        site surveys and technical security assistance to identified 
        CI/KR sites in Georgia.
  <bullet> 70 local Citizen Corps teams, that have proven valuable in 
        preparing local citizens to be more self-reliant in the first 
        hours after a disaster or terrorist event, thus lessening the 
        burden of first responders.
  <bullet> The Georgia Interoperability Network (GIN), where 179 local 
        and disparate public safety radio systems have been given a 
        level of interoperability across the State not before possible.
Urban Area Security Initiative
    The Urban Area Security Initiative (UASI) grant program is designed 
to distribute Federal grant funding to an urban region composed of 
multiple local governments and first responder agencies rather than a 
single city. Our most critical urban centers are not islands unto 
themselves and often rely on infrastructure and support mechanisms far 
outside their city's political boundaries. According to the Government 
Accountability Office (GAO), the purpose of the UASI program is to 
support regional collaboration among local jurisdictions and emergency 
response organizations in order to build and sustain preparedness 
capabilities vital to preventing, protecting, mitigating against, 
responding to, and recovering from acts of terrorism. This regional 
approach to preparedness is an efficient and effective use of 
Government funding as it discourages an individualistic pursuit of 
equipment and encourages collaboration in training and exercising.
    In the State of Georgia, we work with the Metro Atlanta UASI, to 
further the goals and objectives of DHS and the State in building an 
enhanced and sustainable capacity to prevent, protect, respond to, and 
recover from disasters and threats or acts of terrorism in the densely-
populated and critically-vital metropolitan Atlanta area. GEMA/HS 
serves as a pass-through for DHS grant funding that supports the Metro 
Atlanta UASI's activities. Its governance is executed in the form of a 
senior policy group which consists of the mayor of the city of Atlanta 
(who serves as chairman) and the chairpersons of the county 
commissions, which make up its jurisdiction. The Metro Atlanta UASI was 
originally comprised of the city of Atlanta, Fulton County, and DeKalb 
County; however, in 2009, its jurisdiction expanded to include Clayton, 
Cobb, and Gwinnett Counties to better encompass the region and leverage 
the capabilities being built and sustained with traditional SHSGP 
funds.
    The separate but critical funding allotment for the Metro Atlanta 
UASI allows GEMA/HS to leverage more of the traditional SHSGP funding 
to the benefit of other lesser at-risk, yet still critical, cities and 
regions across the State--multiplying the effectiveness of both grant 
programs in enhancing the capability of both urban and suburban public 
safety.
    The Metro Atlanta UASI has built a great deal of capability and 
capacity with funds from past grant cycles to address the unique 
homeland security needs of this high-threat, high-density urban area, 
and to assist the surrounding local governments in the Atlanta region 
in building and sustaining their vital public safety capabilities. 
However, funding levels for recent years represents a dramatic 
reduction in funds compared to what was previously made available. Over 
the past few years, the Metro Atlanta UASI received approximately $5 
million annually in UASI-specific grant funds, compared to a high of 
more than $18 million in 2006. These extensive cuts in funding mean 
that the UASI can only maintain and sustain existing programs, 
training, and equipment; it can no longer make new investments or 
expand outside the region. Any further reductions will cause a 
cascading effect on both grant programs, as established programs could 
no longer be continued at the basic maintenance levels they are at now. 
If we were the target of a terroristic attack or if struck by a major 
disaster, failure to sustain these vital programs could have 
catastrophic effects on the ability of the region to properly protect 
the infrastructure, economy, and the local populace so critical to our 
State and Nation.
            mutual aid supports national response capability
    As explained above, cuts to critical preparedness grant programs 
impact individual States in substantial ways. Impacts to response and 
recovery capabilities, however, do not stop at a State's borders. 
Through mutual aid, facilitated by the Emergency Management Assistance 
Compact (EMAC), any decrease in funding for building homeland security 
and emergency management capacity reverberates across the Nation. EMAC 
was the first National disaster-relief compact ratified by Congress 
since the Civil Defense and Disaster Compact of 1950. Since 
ratification in 1996, every State, the District of Columbia, Puerto 
Rico, Guam, and the U.S. Virgin Islands have enacted legislation to 
become EMAC members. All resources in a State can deploy through EMAC 
(fire-hazmat, law enforcement, public health, medical, mass care, 
animal response, emergency medical services, National Guard, public 
works, search & rescue, transportation, human services, engineering, 
agriculture & forestry, emergency/incident management).
    Coupled with cuts to preparedness grants, the administration 
proposed a massive cut to the very platform that supports the sharing 
of resources across the Nation in times of crisis. FEMA's proposed 56% 
cut of funding to EMAC would effectively roll EMAC back to 2003-2007 
administrative levels. The 2008 increase in administrative funds was a 
direct result of the post-Katrina report completed in 2007 by the 
Government Accountability Office (GAO). Since that time, the EMAC 
structure has matured and evolved, and has played a crucial role in 
disaster response to thousands of events.
    While the primary focus on EMAC training is inter-State mutual aid, 
EMAC is built upon a State's intra-State mutual aid program and 
resource inventory. Nationally, States have been working with the 
resource providers to inventory their resources and capabilities for 
both intra-State and inter-State use and pre-plan the sharing of 
resources through EMAC, using the Threat Hazard Identification and Risk 
Assessment (THIRA) process to help identify resource shortfalls. The 
direct impacts of budget cuts on EMAC are easy to visualize but what is 
less obvious is the resounding impact these cuts would have across the 
Nation. The National Guard Bureau (NGB) has built their J-3 Operations 
and Defense Support for Civil Authority (DSCA) around the use of EMAC 
for the deployment of State National Guard resources between States. 
EMAC truly is the DSCA backbone within NGB. Without a strong EMAC 
interface the Guard would have a hard time both deploying resources 
timely and efficiently thus delaying vital resources to disaster-
affected areas.
    NORTHCOM Director of Military Support (DOMS) process also relies on 
the EMAC process. DOMS is the Department of Defense's representative on 
the Catastrophic Disaster Response Group (CDRG). The CDRG is the 
National-level coordinating group that addresses policy issues and 
support requirements during a disaster, emergency, and/or terrorist 
event from NORTHCOM.
    As this committee knows, all assets supported in part or entirely 
with fiscal year 2016 Homeland Security Grant Program funding that will 
be distributed this year must be readily deployable to support 
emergency or disaster operations through EMAC. To ensure a ``National'' 
system for use of that equipment EMAC is the only solution. The 
proposed budget cut to EMAC would be devastating for this essential 
program that facilitates efficient and effective resource sharing 
across the Nation.
                      building capacity with empg
    While NEMA is concerned with the cuts to critical preparedness 
grant programs like SHSGP and UASI, we did want to highlight a grant 
program that continues to be invaluable to the emergency management 
community. States and locals build capacity and enhance their 
capability to respond to disasters when they utilize the Emergency 
Management Performance Grants (EMPG). The fiscal year 2017 proposal 
requests sustained funding for this program at $350 million.
    EMPG is the only source of Federal funding directed to State and 
local governments for planning, training, exercises, and key 
professional expertise for all-hazards emergency preparedness. The 
money is often used to conduct risk and hazard assessments and support 
emergency operations centers which are the coordination hubs for all 
disaster response. The program also provides public education and 
outreach, enhanced interoperable communications capabilities, and the 
ability to manage State-wide alerts and warnings.
    For example, in fiscal year 2015, EMPG significantly contributed 
to, among other things, planning, exercising, and mutual aid efforts. 
In total, 1,707 State and 5,733 local plans were developed, maintained, 
or updated using EMPG funds. EMPG supported 1,143 State-wide and 4,756 
local and Tribal workshops, drills, and functional full-scale 
exercises, which benefited 96,361 State and 447,707 local participants. 
Without a comprehensive exercise program to complement the training 
efforts, the preparedness cycle would be compromised. Support from EMPG 
is crucial in maintaining mutual aid efforts across the various levels 
of government. In fiscal year 2014, EMPG supported 6,453 local and 
Tribal and 4,819 State-wide mutual aid agreements, memorandums of 
understanding, and memorandums of agreement with neighboring 
jurisdictions, non-profit agencies, Volunteer Organizations Active in 
Disasters (VOADS), and the private sector.
    Recipients of this grant continue demonstrating a strong 
commitment; for every dollar of Federal funds invested, at least that 
much is matched by both grantees and sub-grantees. In the absence of 
these funds, State and local governments would struggle to maintain the 
personnel or capabilities necessary to build and sustain an effective 
emergency management system. EMPG stands as the beacon of Congressional 
commitment to ensuring communities and States are more ready to 
prepare, mitigate, respond, and recover from any number of emergencies 
and disasters. EMPG does far more, however, than provide funds for 
planning, training, exercises, and communications. EMPG must continue 
to be strengthened and maintained through shared investments.
                     grants structure of the future
    Federal funding for homeland security grant programs has decreased 
by more than 75 percent since the program's inception in 2003, yet the 
structure remains unchanged. Congress has recognized this continuing 
disconnect and included language in annual appropriations bills as 
recently as fiscal year 2012 to push for ``long-overdue'' and ``bold'' 
reform of the Federal Emergency Management Agency's (FEMA) 
administration of its State and Local Programs. (House Report 112-91 
accompanying the Fiscal Year 2012 Homeland Security Appropriations bill 
(H.R. 2017), part of Public Law 112-33; September 30, 2011)
    Important improvements have been made to processes for assessing 
risk and strategic planning, but the current grant program design can 
no longer achieve the type of accountability Congress demands and 
support the preparedness capabilities our communities need. Given these 
on-going challenges and the current fiscal environment, the need for 
reform of these preparedness grant programs has never been more urgent. 
In the fiscal year 2013 budget, FEMA provided a proposal to consolidate 
grant programs into a new National Preparedness Grant Program (NPGP). 
While not a perfect proposal, it did succeed in fostering a dialogue on 
our enduring challenges with the suite of 16 separate preparedness 
grant programs. After unsuccessful attempts in 3 consecutive budget 
proposals, the administration did not include the proposal in their 
fiscal year 2017 proposal but some consolidation has occurred over 
time. The tenants of comprehensive reform, however, remain just as 
important as they were in 2012.
    Since 2003, the grant programs have allocated more than $40 billion 
to State and local governments to build and sustain preparedness 
capabilities. The successful outcomes supported by this investment must 
be acknowledged. At the same time, the need to better align these grant 
programs with today's fiscal realities and operational challenges must 
also be recognized. At their inception, the grant programs were 
required to address an unknown threat environment after September 11, 
2001. More than $4 billion in funding was made available through State 
and local preparedness grants in fiscal year 2003 alone. In addition to 
fiscal changes, the environment now incorporates the new ``all-
hazards'' focus stemming from lessons learned after Hurricane Katrina 
in 2005 and subsequent multi-State disasters. A key lesson from those 
events is the importance of intergovernmental collaboration and 
integrating preparedness planning and response activities to ensure 
unity of effort.
    Declining budgets at all levels of Government have increased the 
need to leverage resources and facilitate cross-jurisdictional 
coordination. We can no longer afford to operate in separate silos. 
Unfortunately, the current suite of grant programs perpetuates such 
separations and no longer reflects on-going efforts to align State and 
local capabilities with National preparedness objectives.
    Today's dynamic threat environment requires a grants program that 
prioritizes investments based on risk while maintaining State and local 
ability to sustain prior investments that support National goals. Grant 
programs must be flexible and agile to address changing hazards and 
ensure local investments synchronize with State-wide and regional 
priorities.
    Duplicative reporting requirements and increased administrative 
burden under the current framework also diminish return on investment 
(ROI) as more time and money must be spent on grants administration and 
management. Comprehensive reform would better facilitate maximum 
efficiency of taxpayer dollars and better enable accurate measure of 
ROI over time. This flexibility with accountability can represent the 
face of these reformed grant programs. For only through comprehensive 
changes to the existing structures can we achieve a more effective 
preparedness program for States and locals.
                               conclusion
    Again, I appreciate the opportunity to address these issues 
critical to the emergency management community. This committee 
regularly affirms support for ensuring preparedness for our Nation's 
vulnerabilities against all hazards. It speaks volumes, that your first 
hearing as Chairman of this committee would be dedicated to the 
critical fiscal challenges facing the emergency management and homeland 
security community in these uncertain times.
    Regardless of our country's fiscal situation, physical security, 
and economic security are not mutually exclusive. Emergency managers 
have been absorbing budget cuts at the State level for years and 
understand they must do more with less on a consistent basis. Under the 
current risk stature, however, reducing available funds under the State 
Homeland Security Grant Program could reverse much of the progress our 
Nation spent decades building.
    As you develop the fiscal year 2017 budget for the Department of 
Homeland Security, we encourage you to utilize our membership as a 
resource and continue efforts to build a strong and robust emergency 
management baseline in our country. Together, we will carry on the 
initiatives so thoughtfully developed and supported by this committee 
over the years.
    I thank you for the opportunity to testify on behalf of NEMA and 
appreciate your continued partnership.

    Mr. Donovan. Thank you, Mr. Butterworth. The Chair now 
recognizes Chief Kerr.

 STATEMENT OF RHODA MAE KERR, FIRE CHIEF, CITY OF AUSTIN FIRE 
    DEPARTMENT, AUSTIN, TEXAS, TESTIFYING ON BEHALF OF THE 
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Kerr. Good morning, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee. I am Chief Rhoda Mae 
Kerr of the Austin Fire Department. I also am president and 
chair of the board of the International Association of Fire 
Chiefs. I thank you for the opportunity to testify today on 
behalf of the fire and emergency services.
    The IAFC is greatly concerned by the Draconian cuts to 
FEMA's grant programs in the fiscal year 2017 budget proposal. 
We also oppose attempts to convert the AFG and SAFER grant 
programs into terrorism preparedness programs. In the wake of 
an evolving terrorist threat, now is not the time to break a 
system that works.
    The American taxpayers have spent more than $40 billion 
since 9/11 on grant programs to improve the Nation's 
preparedness and response system. Overall, this funding has 
been spent wisely to make the Nation safer. By using the State 
Homeland Security Grant and the UASI programs, State and local 
governments have been able to develop terrorism preparedness 
capabilities that did not exist before 9/11. Local 
jurisdictions have used these grant funds to build and staff 
intelligence fusion centers, develop mass casualty response 
units, and construct regional interoperable communication 
networks. We would not have had the funding for these projects 
without Federal assistance.
    In Austin, we were able to use FEMA-preparedness grants to 
fund annual CBRNE exercises. These exercises brought together 
all stakeholders: Fire, EMS, law enforcement, public health, 
city management, private sector, Federal and State partners, 
surrounding jurisdictions, et cetera. We were able to learn 
together how to respond to a potentially catastrophic threat. 
Also, we were able to make the necessary changes to improve our 
planning and operations for the future.
    Federal funding is important. As Austin demonstrated, 
Federal grants incentivize regional cooperation and 
coordination among all the Federal, State, local, and private-
sector stakeholders. These grants also support the 
implementation of NIMS, which allows multiple agencies to 
communicate and function effectively. The incident scene should 
not be the first time for everyone to meet. We are better 
prepared for responding to a future terroristic attack due to 
the planning and training supported by the State Homeland 
Security Grant Program and UASI.
    The AFG and SAFER grant programs helped localities prepare 
for all hazards. The AFG grant program provides matching grants 
for equipment and training. The SAFER grant program provides 
support for firefighter staffing. Both of these programs have 
improved the operational capabilities of fire departments 
across the Nation. When a major disaster or catastrophe occurs, 
the Nation relies upon neighboring local fire departments to 
provide critical mutual aid.
    As Federal funding for FEMA's grant program has declined 
over the years, our main focus has been on sustaining the 
National preparedness and response system. That is why the IFC 
members are concerned by the proposed cuts in the President's 
fiscal year 2017 budget. The budget proposal would cut the 
State Homeland Security Grant Program by more than half, the 
UASI program would receive a 45 percent cut. Even the AFG and 
SAFER programs each would be cut by $10 million from last 
year's appropriation. These grant programs are achieving their 
goals, and it is unwise to cut them. We must realize that the 
proposed cuts would occur in a dangerous and evolving threat 
environment.
    Last year, the Nation witnessed terrorist incidents in 
Garland, Texas; Chattanooga, Tennessee; and San Bernardino, 
California. Each of these attacks involved different tactics 
and techniques. FEMA preparedness grants help us to analyze 
threat information at the State and local level and develop 
capabilities for these new threats. We are also concerned by 
the budget proposal's effort to convert the AFG and SAFER grant 
programs into terrorism response programs.
    These programs are aimed at helping fire and EMS 
departments prepare for incidents as diverse as structural 
fires, HAZMAT incidents, wild land fires, and even acts of 
terrorism. We ask that Congress protect the funding for the 
State Homeland Security Grant Program and UASI program by at 
least maintaining the fiscal year 2016 appropriations level of 
$467 million and $600 million, respectively. For the AFG and 
SAFER grant programs, we ask that you fund each program at $405 
million, the fiscal year 2011 level. We also ask that Congress 
reauthorizes the AFG and SAFER grant programs before they 
expire in 2018.
    Overall, the IAFC can attest to the fact that FEMA's grant 
programs play an important role in developing and sustaining 
the Nation's preparedness system. We ask that Congress maintain 
its support for these programs.
    Thank you again for the opportunity to explain the 
importance of these programs to America's fire and emergency 
service, and I look forward to answering any questions that you 
may have. Thank you.
    [The prepared statement of Chief Kerr follows:]
                  Prepared Statement of Rhoda Mae Kerr
                             March 15, 2016
    Good morning, Chairman Donovan, Ranking Member Payne, and Members 
of the subcommittee. I am Rhoda Mae Kerr, fire chief of the Austin Fire 
Department, and president and chair of the Board of Directors of the 
International Association of Fire Chiefs (IAFC). The IAFC represents 
more than 11,000 leaders of the Nation's fire, rescue, and emergency 
medical services. Thank you for the opportunity to discuss the effects 
of cutting the preparedness grant programs at the Federal Emergency 
Management Agency (FEMA).
    It is important to emphasize to the American taxpayers that the 
more than $40 billion spent on FEMA grants have been used to develop a 
strong National preparedness and response system. From the fire and 
emergency service's perspective, I would like to highlight a few grant 
programs with the most relevance. The State Homeland Security Grant 
Program (SHSGP) and the Urban Areas Security Initiative (UASI) help 
local fire and EMS departments to prepare for potential acts of 
terrorism by supporting planning, training, and equipment. The 
Assistance to Firefighters Grant (AFG) grant program\1\ (including the 
SAFER and Fire Prevention and Safety grants) help fire departments 
improve their baseline emergency response capability.
---------------------------------------------------------------------------
    \1\ Popularly known as the ``FIRE'' grant program.
---------------------------------------------------------------------------
    The IAFC is greatly concerned by the administration's fiscal year 
2017 budget proposal. It would include Draconian cuts to the SHSGP and 
UASI program. Also, it would attempt to re-classify the AFG programs as 
homeland security grants. Additionally, the new budget would remove 
many of the separate accounts funding these programs and combine them 
under a new ``Federal Assistance'' account. Considering the growing 
threat of coordinated, complex attacks sponsored by foreign terrorist 
groups, we ask Congress to reject the administration's budget proposal. 
Now is not the time to break a system that works.
    It is important to point out that the majority of the investments 
in preparedness are still made by local communities. As Federal grant 
funding continues to decline, local emergency response agencies will 
have to focus on sustaining our existing capabilities and using Federal 
funds wisely by learning from other grantees' past experience.
               successes of the current dhs grant system
    The current suite of FEMA preparedness grants are critical to 
building a National preparedness system. The great success of the 
Federal homeland security grant programs is that they provide an 
incentive for Federal, State, Tribal, territorial, and local 
jurisdictions to work together. By planning, training, and conducting 
exercises together, local fire chiefs, police chiefs, sheriffs, public 
health officials, emergency managers and State and Federal officials 
are able and ready to work together when an incident happens. This pre-
planning and coordination prevents confusion during an incident and 
directly saves lives.
    In Austin, UASI-funded training brought together all of the 
regional stakeholders, including smaller neighboring jurisdictions, 
surrounding volunteer fire departments, the U.S. Attorney's office, 
public health officials, and the city manager for annual exercises in 
response to mock chemical, biological, radiological, nuclear, or 
explosive (CBRNE) events. The UASI funds allowed the Austin region to 
complete training that it would not otherwise have been able to do, and 
brought all of the stakeholders together to learn how to work together 
in a catastrophic situation. In addition, Austin was able to purchase 
props and develop expertise with the initial Federal funding, so that 
the region could continue to host these annual exercises after the UASI 
funding expired.
    The SHSGP and UASI grants also help local jurisdictions develop 
capabilities for responding to terrorist attacks. In the National 
Capital Region (NCR), UASI funds have been used to help the area 
prepare for a future mass casualty incident. The NCR used its funds to 
develop 8 Medical Ambulance Buses and Mass Casualty units, which can 
each transport 40 patients and treat up to 100 patients. In addition, 
learning from the lessons of the response to the 9/11 attack on the 
Pentagon, the NCR also used UASI funds to develop a patient tracking 
system. This system allows EMS personnel to use hand-held devices to 
scan a victim's triage tag, enter basic information about the patient's 
identity and pre-hospital care, and transport the patient to the 
appropriate area hospital.
    In Clark County, Nevada, SHSGP, and UASI funds are used to support 
fusion center activities within the Southern Nevada Counterterrorism 
Center. These activities include suspicious activity analysis and 
reporting; evaluation and support of special events; multi-agency 
intelligence and information sharing; and the hardware and software to 
support these programs. The Federal funding also supports community 
outreach and education programs like ``See Something, Say Something'' 
campaigns; training and exercises; and the development of public/
private partnerships to help protect the region.
    These preparedness grants also support regional coordination. 
Jurisdictions that receive FEMA grants must certify that they are 
compliant with the National Incident Management System (NIMS). NIMS is 
based on the fire service's incident command system and allows multiple 
agencies to communicate and function effectively during an incident 
response. The need for effective NIMS implementation is vital, 
especially in the case of a complex, coordinated attack like the one in 
Paris which took place in multiple locations. As Austin's fire chief, I 
have found the Federal grant funds to be an effective catalyst for 
helping Federal, State, and local stakeholders to plan, train, and 
conduct threat-based exercises together. During the first hours of a 
major incident response, it is important that all responding agencies 
are familiar with each other and basic command-and-control functions to 
ensure an effective response and prevent confusion.
    I also would like to highlight the important role that the AFG 
program plays in improving the Nation's preparedness. The AFG program 
uses a merit-based, peer review process to provide matching grants to 
local fire and EMS departments for equipment and training. The SAFER 
grant program uses a similar process to provide matching grants for 
hiring career firefighters and helping to recruit and retain volunteer 
firefighters. Here are some examples from the National Fire Protection 
Association's (NFPA) Third Needs Assessment of the U.S. Fire Service of 
how the AFG and SAFER grants are helping local fire and EMS 
departments:
  <bullet> 51 percent of all fire departments that answered the NFPA 
        survey do not have enough portable radios to equip all 
        emergency responders on a shift. This percentage is down from 
        77 percent in 2001 and 75 percent in 2005.
  <bullet> 48 percent of all fire departments that are responsible for 
        EMS have not formally trained all of their personnel involved 
        in EMS. This percentage is down from 54 percent in 2001 and 53 
        percent in 2005.
  <bullet> 51 percent of all fire departments cannot equip all 
        firefighters on a shift with self-contained breathing 
        apparatus. This percentage is down from 70 percent in 2001 and 
        60 percent in 2005.
  <bullet> 65 percent of all fire departments that are responsible for 
        hazardous materials response have not formally trained all of 
        their personnel involved in hazmat response. This percentage is 
        down from 73 percent in 2001 and 71 percent in 2005.
    As you can see, FEMA's homeland security grants are meeting their 
goal in providing training and building capabilities that local fire 
and EMS departments could not otherwise develop. It is important to 
recognize that Federal homeland security grant funding has decreased 
over the years. Currently, preparedness grants like the UASI and SHSGP 
programs are focused on sustaining existing capabilities. Meanwhile, 
the AFG and SAFER programs have shown remarkable progress in improving 
baseline emergency response capabilities, but a lot of work remains.
         the administration's fiscal year 2017 budget proposal
    The IAFC has serious concerns about the administration's fiscal 
year 2017 budget proposal. It drastically reduced many of these 
important grant programs: The SHSGP program would be cut by more than 
half to $267 million and the UASI program would be cut by 45% to $330 
million. In addition, the AFG and SAFER grant programs would be cut by 
$10 million each and be classified as terrorism preparedness grants 
with a priority given to applications that ``enhance capabilities for 
terrorism response and other major incidents.''
    As my testimony demonstrates, the SHSGP and UASI programs are 
achieving their missions of building terrorism response capabilities 
that a jurisdiction would not otherwise be able to afford and serving 
as an incentive to bring together all stakeholders for major training 
and exercises. Because of the steady decrease in SHSGP and UASI funding 
over the years, most of these funds are being used to sustain existing 
capabilities. It is unwise to cut programs that actually are achieving 
their objectives.
    It also is important to recognize that these cuts are proposed in a 
more dangerous threat environment. Last May, we witnessed an incident 
at the Curtis Culwell Center in Garland, Texas, involving 2 individuals 
inspired by communications with the Islamic State of Iraq and al-Sham 
(ISIS). In July, an active shooter attacked a U.S. Naval Reserve Center 
and a military recruitment center in Chattanooga, Tennessee. In 
December, a husband and wife used active-shooter tactics with potential 
pipe bombs in San Bernardino, California. ISIS continues to threaten 
the U.S. homeland and we have learned that acts of terror can occur 
anywhere in the Nation. Grants like the SHSGP and UASI program help us 
to analyze threat information and develop capabilities to prepare for 
these new threats.
    We also have concerns about the administration's attempts to 
convert the AFG and SAFER grant programs into terrorism response 
programs. These programs are meant to improve baseline capabilities for 
all-hazards response. Many fire departments around the Nation still 
have trouble meeting basic response requirements and the AFG and SAFER 
grant programs have proven successful at helping these departments. 
Fire departments depend on each other to provide mutual aid in response 
to incidents as diverse as high-rise fires, wildland fires, and even 
acts of terrorism. It is important that fire departments around the 
Nation have basic emergency response capabilities, so that they can 
effectively aid each other during these incidents. The AFG and SAFER 
grant programs help support a Nation-wide response system that can 
escalate and respond to all hazards, not just acts of terrorism.
    Also, we oppose the administration's attempts to set a priority for 
AFG and SAFER applications focused on terrorism response. As described 
in statute,\2\ the major National fire service organizations meet 
annually to discuss the criteria for the upcoming year's AFG and SAFER 
grants. One complaint with the SHSGP and UASI programs is that FEMA 
changes funding priorities every year without much explanation. 
Priorities for the AFG and SAFER grant programs should be based on 
stakeholder-driven criteria and not bureaucratic whims.
---------------------------------------------------------------------------
    \2\ 15 U.S.C.  2229(l)(2).
---------------------------------------------------------------------------
    The IAFC also opposes the fiscal year 2017 budget proposal's 
attempts to consolidate a number of programs, including FEMA's 
preparedness grants, the U.S. Fire Administration, the AFG and SAFER 
grant programs, the Emergency Management Performance Grants and other 
programs into one ``Federal Assistance'' account. Historically, these 
programs have been funded under separate accounts to ensure that the 
appropriations were spent in a transparent and accountable manner. Our 
concern is that this transparency and accountability will be lost if 
these programs are merged into a single ``Federal Assistance'' account.
                               conclusion
    I thank you today for the opportunity to testify about the 
importance of FEMA's SHSGP, UASI, AFG, and SAFER grant programs. This 
suite of grants plays an important role in building and sustaining the 
National preparedness system. The changes proposed in the fiscal year 
2017 budget proposal would hurt the ability of the Nation's local fire 
and emergency service to protect their communities.
    For fiscal year 2017, the IAFC urges Congress to at least continue 
to fund the SHSGP program at the fiscal year 2016 level of $467 million 
and the UASI grant program at the fiscal year 2016 level of $600 
million. For the AFG and SAFER grant programs, we ask you to fund these 
programs at the fiscal year 2011 level of $405 million each. This 
request is based on the steady increase in the cost of equipment. For 
example, the cost of personal protective equipment has increased by 
11.4% since 2011 and the cost of self-contained breathing apparatus has 
increased by 15%. In addition, the cost of fire apparatus also has 
increased: The cost of pumper trucks, which represent 60% of the 
apparatus market, has increased by 14.6% since 2011 based on increased 
labor and materials' costs. To ensure continued transparency and 
accountability, we also recommend that Congress continue to fund these 
programs using the same appropriations account structure that has been 
used in the past. In addition, we urge Congress to reauthorize the AFG 
and SAFER grant programs which otherwise will sunset in January 2018.
    I am grateful for the committee's leadership in addressing the 
needs of first responders as we prepare for an evolving terrorist 
threat. The IAFC looks forward to working with you during the fiscal 
year 2017 appropriations process to ensure that local fire and EMS 
departments are ready to protect their communities.

    Mr. Donovan. Thank you, Chief Kerr. The Chair now 
recognizes Chief Turner.

  STATEMENT OF GEORGE TURNER, CHIEF OF POLICE, ATLANTA POLICE 
DEPARTMENT, ATLANTA, GEORGIA, TESTIFYING ON BEHALF OF THE MAJOR 
                         CITIES CHIEFS

    Chief Turner. Thank you. Good morning, Chairman Donovan, 
and Ranking Member Payne. I appear before you today as the 
chief of police of Atlanta, the largest metropolitan region in 
the South. It is also my privilege to serve on the board of 
directors for Major City Chiefs as the second vice president. I 
represent every major urban area in our Nation, the communities 
that would suffer most from further reduction in Federal 
assistance for law enforcement.
    I speak today as one police chief on behalf of my 
colleagues from the 68 largest police departments in our 
country. I also received a letter of support from 17 
organizations that represent local elected officials, emergency 
managers, port and transit operators, sheriffs, and major fire 
associations that have strong concerns about several severe 
cuts to 4 key homeland security grant programs. We ask the 
committee to consider the responsibility that each of you share 
with the chiefs of police protecting the American public from 
harm.
    As we reflect on the events of Paris and San Bernardino, 
here at home, it is evident that preparedness for a terrorist 
attack is the highest priority than ever before. There is a 
certain irony to the proposed cuts. They come in the wake of 
terrorist attacks not just in cities abroad, but on our own 
shores, in Chattanooga, San Bernardino, and Philadelphia, for 
an example.
    The proposed budget of DHS would reduce from $41.1 billion 
to $40.6 billion, a reduction of more than $500 million. But 
the 2 grant programs which assist States and local agencies 
would be cut by $537 million, more than the entire amount of 
the reduction of the Department of Homeland Security.
    As a police chief, I have assigned personnel to Federal 
task forces and our regional fusion center. Every day we are 
asked to assist one of our Federal agencies or another. But 
funding from Washington does not even take up a small portion 
of the amount of money that Atlanta and the city police 
department provides. The same is true in every other major city 
in America. We are really subsidizing the Federal Government, 
because what we receive from Washington does not begin to pay 
the bill.
    The world's busiest airport, Hartsfield-Jackson Airport, is 
protected by Atlanta personnel and a team effort from DHS that 
includes the model K-9 program we conduct with TSA. The Urban 
Area Security Initiative program funds purchases of specific 
equipment, including a robot that is equipped to board 
aircrafts. The Federal investment pays off each day in 
communities across the country during incidents both large and 
small. For example, much of the training and equipment used to 
respond to the May 2015 Amtrak derailment in Philadelphia were 
paid for with grants provided by FEMA.
    Chairman Donovan and Ranking Member Payne, chiefs of police 
are grateful for all you do, and we look to you for leadership. 
To accept the proposed cuts would forfeit so much of what we 
have already invested in since the inception of DHS, and leave 
local agencies like mine on the fence to fend for themselves, 
with Federal agencies continuing to grow.
    As a police chief, we have our common bonds with you. It is 
the safety of the public we are sworn to protect and serve. To 
this end, we implore that you restore balance to the 
partnership with DHS by protecting the funds which sustain the 
work of the subcommittee.
    It is my pleasure to testify today. I look forward to any 
questions that you might have. I do want to talk about the fact 
that we need to continue to sustain the efforts that we have 
already pushed forward thus far in this partnership. Thank you.
    [The prepared statement of Chief Turner follows:]
                  Prepared Statement of George Turner
                             March 15, 2016
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, I appear before you today as the chief of police for 
Atlanta, the largest metropolitan region in the South. It is also my 
privilege to be on the board of directors and 2nd vice president for 
the Major Cities Chiefs, representing every major urban area in our 
Nation--the communities which would suffer most from further reductions 
in Federal assistance for law enforcement. I speak today as one police 
chief on behalf of my colleagues from the 68 largest cities in the 
United States.
          needed support for the front lines of public safety
    As Mayor De Blasio has noted, local police and public safety 
officers today stand on the front lines of both preparedness and 
response, just as they did in New York and Washington, DC on September 
11, 2001. But the proposed 2017 budget reductions represent the most 
drastic cuts in a downward spiral of declining help from Washington. In 
the face of the current threat, police chiefs agree with the title of 
today's hearing--it is indeed a disaster.
    As the law enforcement witness in this hearing, I appeal to 
Congress not to abandon the officers who put their lives on the line 
every day. Forgive me if a term like ``abandon'' sounds like hyperbole, 
but for police officers in every major American city, I can tell you 
this is not empty rhetoric. There is no other way to describe the 
dramatic decreases in DHS support for local police and first 
responders. DHS funding for the combined grant programs in 2010 was 
more than $3 billion. By 2016, the current fiscal year, it had fallen 
to half that amount. If Congress were to approve the cuts proposed for 
the coming year, law enforcement agencies could receive as little as a 
third of what was once provided by Washington.
    Federal agencies and other parts of DHS have not suffered any sort 
of comparable reductions. Speaking for men and women in uniform on the 
front lines, we implore the committee to reverse this alarming trend 
and to strengthen support for public safety in your own communities 
back home.
                 urban area security initiative (uasi)
    We ask the committee to consider the responsibility that each of 
you shares with a chief of police--protecting the American people from 
harm. Major Cities Chiefs counts every one of the UASI cities in our 
membership and that means we have a direct tie to the important work of 
this subcommittee. As we reflect on the events abroad in Paris and in 
San Bernardino here at home, it is evident that preparedness for a 
terrorist attack is a higher priority than ever before. Major Cities 
Chiefs hosted San Bernardino officials at our last meeting and we heard 
first-hand what comprised their preparedness and response to the 
attack. It was a case study in the work of this subcommittee--it was 
all about preparedness. Whether from ISIS abroad or home-grown 
extremists, the threat is real and it haunts police chiefs every day. 
But the DHS programs designed to support preparedness and prevention 
efforts have been diminished as the threat has increased. UASI is a 
small shadow of what it once. The proposed budget cuts UASI to $330 
million. If you add the State Homeland Security Grant Program proposal 
for $200 million, that is a total of $550 million, just a third of the 
more than $1.6 billion back in 2009 and 2010.
                   partnerships to prevent terrorism
    In spite of these budget cuts, our work with the Department of 
Homeland Security and the Department of Justice is stronger than ever 
before. We share intelligence, work joint cases, conduct preparedness 
exercises and all of these efforts make us stronger. Yet, funding for 
our Federal partners has grown while support for our partnership with 
DHS has been slashed to a fraction of what we received in the past.
    We ask the subcommittee to consider if this a balanced partnership. 
The proposed budget of DHS would be reduced from $41.1 billion to $40.6 
billion, a reduction of $500 million. But the 2 grant programs which 
assist State and local agencies would be cut by $537 million, more than 
the entire amount of the reduction for the Department of Homeland 
Security.
    As a police chief, I have assigned many personnel to Federal task 
forces and our regional fusion center. Every day we are asked to assist 
one Federal agency or another. But funding from Washington does not 
even cover a small part of the cost to the Atlanta Police Department. 
The same is true in every other major American city--we are really 
subsidizing the Federal Government--because what we receive from 
Washington does not begin to pay that bill.
          law enforcement terrorism prevention program (letpp)
    Congress intended for law enforcement to have a law enforcement 
set-aside comparable to line item programs for Fire Chiefs, Emergency 
Management, Ports, and other top priorities. But the intent of Congress 
has not been followed when it comes to LETPP, as it is no longer a 
stand-alone program and no longer a priority. Congress directed that 
LETPP should be funded at not less than 25% of the sum of SHSGP and 
UASI. Rather than maintain LETPP as a program and fund it at the 
required level, FEMA eliminated the program and merely applied the 
percentage to broad definitions in the other programs. For the proposed 
budget, that would represent about $137 million, less than a third of 
the amount now proposed for cybersecurity and less than a third law 
enforcement funding in 2009 and 2010.
    Unlike the other programs called out in legislation, terrorism 
prevention and law enforcement have somehow disappeared. There is no 
line item, no set-aside, and no separate program. Unlike the past 
practice where an LETPP amount was separately designated for each 
State, now only 2 programs appear--the State grant program and UASI. 
Following Paris and San Bernardino, LETPP is gone at a time when it is 
needed more than ever before.
                   funding consistency and continuity
    The process used by DHS to determine UASI funding continues to be 
both vexing and contradictory. For many of the major cities it has been 
a roller coaster ride of ups and downs. Police chiefs cannot even 
consider a preparedness budget when they do not know if they are ``in 
or out''. Take the case of Las Vegas, obviously an iconic terrorist 
target with more and more venues growing each year. But according to 
the formula process, Las Vegas is a threat some years and not others. 
We would ask the committee to investigate how these decisions are made, 
in order to ensure consistency and continuity for preparedness planning 
in the years to come.
                       investment and sustainment
    Official reports indicate that Congress has invested upwards of $40 
billion across the Nation since DHS was established. As you look 
forward into 2017, I would suggest to the committee that you also look 
back on what you have already invested. I have been with the Atlanta 
Police Department every day since the September 11 attacks and I have 
witnessed all that DHS has done to help my department and our 
community. These efforts were never planned as one-time events. 
Baseline capabilities were reached, Federal standards were satisfied--
but it's my job to ensure that these preparedness capabilities are 
sustained. I cannot do so if the proposed cuts were to be approved by 
Congress.
    An example of a success partnership is our work with TSA and other 
DHS components at the Atlanta Airport. The world's busiest airport, the 
Hartsfield Jackson Airport is protected by Atlanta personnel in a team 
effort with DHS that includes a model canine program we conduct with 
TSA.
    Sustainment is an on-going challenge. Exercises must be repeated 
for new and changing personnel. Equipment must be serviced and updated. 
Even batteries must be replaced. Virtually none of the DHS investments 
will last indefinitely. Mr. Chairman, to sustain those capabilities 
must be the highest priority for preparedness--the top priority of this 
subcommittee. Much will be lost without adequate resources for 
sustainment.
                   training and technical assistance
    The September 11 attacks in New York and Washington, DC will always 
serve as a tragic reminder of critical gaps. Communications is a major 
responsibility for this subcommittee and it is a continuing challenge 
for chiefs of police and sheriffs across the Nation. We should never 
forget that hundreds of New York's first responders perished without 
radio interoperability on September 11, 2001, and the agencies 
responding to the Pentagon were likewise unable to communicate with 
each other.
    Investments in communications preparedness are also sustained by 
training and technical assistance provided by DHS. I call your 
attention to the DHS Office of Emergency Communications (OEC) which 
falls under your jurisdiction. Atlanta and other major cities have 
benefited greatly from efforts to sustain our mobile radio 
capabilities. Boston officials reported that emergency communications 
did not falter during the bombings, and attributed their success to 
preparedness training, exercises and technical assistance. Atlanta area 
agencies have received OEC training and technical assistance on 
multiple occasions, attached as an appendix to my testimony, as a key 
example of the important work of this subcommittee. While the 
interoperable communications grant program came to an untimely end in 
2010, we need to strengthen current communications capabilities and 
migrate to new broadband technologies. We recommend that the 
subcommittee continue to ensure that DHS has resources to sustain and 
strengthen vital assistance programs such as OEC.
          law enforcement intelligence and information sharing
    We are grateful for the work of the Office of State and Local Law 
Enforcement (OSLLE) at DHS. Congress established that office to 
coordinate law enforcement activities and I can report to the 
subcommittee that it fulfills the intent of Congress every day. 
Likewise, we are working closely with the Office of Intelligence and 
Analysis (I&A) to strengthen our partnership with DHS, especially 
regarding the operation of our regional fusion centers.
    In Georgia, we have had a number of militia cases and we are deeply 
concerned about home-grown extremists. For this reason, we strongly 
support DHS efforts to Counter Violent Extremism (CVE) and Major Cities 
Chiefs will engage with DHS leadership to roll out CVE initiatives in 
urban areas. To this end, Major Cities Chiefs has established a network 
of Intelligence Commanders from every major urban area, working 
together as our Criminal Intelligence Enterprise (CIE). Our 
intelligence personnel have designed a common approach to threat 
assessment and they share information to prepare and analyze similar 
and common threats. We are grateful to DHS officials for their 
partnership in this unprecedented endeavor to prevent and interdict the 
terrorist threat in our communities.
                            the way forward
    Chairman Donovan and Ranking Member Payne, chiefs of police are 
grateful for all you do, and we look to you for leadership. To accept 
the proposed 2017 cuts would forfeit so much of what you have invested 
since the inception of DHS, and leave local agencies like my own to 
fend for themselves while Federal agencies continue to grow.
    As chiefs of police we know our common bond with you is the safety 
of the public we have sworn to protect. To this end, we implore you to 
restore balance to our partnership with DHS by protecting the funding 
which sustains the work of this subcommittee.
                   Appendix A.--UASI Funding History
2009
  <bullet> UASI $798,631
  <bullet> SHSP $861,265
2010
  <bullet> UASI $832,520
  <bullet> SHSP $842,000
2011
  <bullet> UASI $662,662
  <bullet> SHSP $526,874
2012
  <bullet> UASI $490,376
  <bullet> SHSP $294,000
2013
  <bullet> UASI $558,745
  <bullet> SHSP $354,644
2014
  <bullet> UASI $587,000
  <bullet> SHSP $401,346
2015
  <bullet> UASI $587,000
  <bullet> SHSP $402,000
2016
  <bullet> UASI $580,000
  <bullet> SHSP $402,000
Proposed 2017
  <bullet> UASI $330,000
  <bullet> SHSP $200,000
   Appendix B.--DHS Office of Emergency Communications Assistance to 
                                Atlanta
    July 2009.--Supported the development of an SOP for the Georgia 
Interoperability Network (GIN). Representative of Atlanta attended and 
provided comments on the draft (Held in Athens, GA).
    May 2010.--Performed a Communications Unit Leader (COML) training 
in downtown Atlanta. Included attendees from various disciplines.
    July 2010.--Performed an engineering coverage assessment for the 
State including the Atlanta Metropolitan area.
    August 2011.--Presented an overview of the National 
Interoperability Field Operations Guide (NIFOG) and its underlying 
principles to 60 attendees in the Atlanta Metropolitan area from 
various disciplines.
    August 2012.--Presented an overview of the National 
Interoperability Field Operations Guide (NIFOG) and its underlying 
principles to over 70 attendees in the Atlanta Metropolitan area.
    September 2012 to April 2013.--Worked with personnel from the city 
of Atlanta to update their current Tactical Interoperable 
Communications Plan and then utilized the components of that plan to 
develop a Communications Field Operations Guide for the Atlanta 
Metropolitan area.
    April 2013.--Performed a Communications Unit Leader (COML) Train-
the-Trainer course in downtown Atlanta. This training is intended to 
build a cadre of instructors who are locally-based across the State so 
that the State may carry out their own COML courses.
    June 2013.--Carried out a Public Safety Communications Center 
Operations Workshop in the city of Atlanta attended by and focused on 
personnel from public safety answering points (PSAPs) and dispatch 
centers across the State and city of Atlanta.
    August 2015.--Performed a pilot delivery of the All-Hazards 
Incident Communications Center Manager Training, designed to prepare 
COMLs and Dispatch Supervisors and public safety communication 
professionals for managing all functions in the Incident Communications 
Center.

    Mr. Donovan. Thank you, Chief Turner. The Chair now 
recognizes Mr. Sena.

STATEMENT OF MIKE SENA, DIRECTOR, NORTHERN CALIFORNIA REGIONAL 
   INTELLIGENCE CENTER, TESTIFYING ON BEHALF OF THE NATIONAL 
                   FUSION CENTER ASSOCIATION

    Mr. Sena. Chairman Donovan, Ranking Member Payne, and 
Members of the subcommittee, I would like to thank you very 
much for inviting me to speak on behalf of the National Fusion 
Center Association. FBI Director Comey testified last month 
that there were more than 1,000 active home-grown violent 
extremism investigations across the United States. In light of 
that, the President's fiscal year 2017 budget request for FEMA 
preparedness grants left us scratching our heads. I want to 
share some of the reasons why the proposal doesn't make sense.
    Last month, more than 100 million Americans watched Super 
Bowl 50. The game was played in Santa Clara, which falls in my 
fusion center's area of responsibility. With the Santa Clara 
Police Department in the lead, our fusion center played a 
central role, coordinating with all public safety partners in 
protecting the Bay Area Super Bowl venues. Thousands of law 
enforcement, fire, EMS, critical infrastructure security, and 
private-sector personnel from all surrounding jurisdictions and 
at all levels of government had access to interoperable video, 
voice, and data capabilities in one communications platform. We 
all were looking at the same common operating picture, with 
suspicious activity reports, positive license plate reader 
hits, and threats popping up in real time for analysis and 
response.
    Our fusion center was able to give the National Operations 
Center at DHS headquarters here in the District of Columbia the 
exact same view throughout the event to ensure real-time 
situational awareness. Most of this capacity was built with 
UASI and SHSGP grant funds provided through our Governor's 
Office of Emergency Services, led by Mark Ghilarducci.
    The Wisconsin State-wide Information Center has trained 
thousands of fusion liaison officers, also called terrorism 
liaison officers, across the State in how to recognize and 
report suspicious activity. Privacy, civil rights, and civil 
liberties considerations are a centerpiece of the training, and 
the result has been the establishment of a trusted information-
sharing network across the State. That same model has been 
built at fusion centers across the country.
    After the attacks in Paris, in my home town of San 
Bernardino, suspicious activity reporting through the fusion 
liaison network skyrocketed in Wisconsin and across the Nation. 
Analysts at fusion centers have been able to quickly receive 
those reports, vet them, and share information with the 
appropriate partners, including the FBI. They are connecting 
crucial data residing in State and local law enforcement 
databases to the Terrorist Screening Center encounters. That 
data would otherwise be out of reach for the FBI. It is now 
routinely shared quickly through fusion centers.
    Those capabilities in Wisconsin and across the country were 
built on and are sustained through, today, the SHSGP and UASI 
funds. At the Boston Regional Intelligence Center, or the BRIC, 
9 positive investigative leads were generated over the past 
year through analysis of publicly-posted social media. Three of 
these leads resulted in FBI full field investigations. Two of 
the leads, 1 to the FBI and 1 to the Rhode Island fusion 
center, proved to be critical in investigation of ISIL-inspired 
terrorists, leading to indictments by the U.S. Attorney's 
Office. Nearly all of the BRIC's counterterrorism analytical 
capabilities, which generate critical intelligence in these 
cases, are supported by UASI funds.
    Immediately after the San Bernardino terrorist attack, 
analysts at the Joint Regional Intelligence Center, or JRIC, 
were developing intelligence on suspects and sharing it 
directly with the San Bernardino Police Department, sheriff's 
office, and the FBI. An alert sheriff's deputy, who had 
recently received training through the JRIC, called the fusion 
center to report that an individual matching the description of 
the person wanted in connection with providing weapons to the 
shooters was about to check out of a local area hospital. The 
fusion center immediately passed the information to the task 
force that was about to launch a manhunt for the individual, 
enabling them to call it off before it even started. Much of 
that capacity of the JRIC, used every day in support of 
criminal and terrorism investigations, was built and sustained 
by UASI and SHSGP funding.
    To be blunt, Mr. Chairman, any reduction in these grants, 
let alone hollowing them out with a 50 percent cut, would be a 
devastating blow to the capability built in this country for 
threat detention, prevention, intelligence analysis, and 
information sharing. It would be a repudiation of the reality 
that everyone in public safety knows, that the State and local 
data, intelligence and community relationships, are the 
cornerstone of homeland security. Federal agencies, including 
the FBI, are asking fusion centers for more information and 
more partnerships and expect more capability all the time to 
support their missions at the Federal level, including 
terrorism.
    Given all this, we have a hard time understanding why these 
cuts were proposed. The examples above are just a few of 
thousands of instances where my colleagues across the fusion 
center network are doing difficult but critically important 
work on behalf of the Federal taxpayers.
    This committee has advanced some important legislation over 
the past year that would strengthen fusion center partnerships 
and capabilities. We hope that the Senate acts on those bills 
soon. But I can tell you for sure that if the SHSGP and UASI 
programs are cut, the objectives of those bills would be 
impossible to achieve. Congress should reject the budget 
request.
    Mr. Chairman, now is the time to shore up those 
capabilities we've built, not to tear them down. I look forward 
to your questions.
    [The prepared statement of Mr. Sena follows:]
                    Prepared Statement of Mike Sena
                             March 15, 2016
    Mr. Chairman, Ranking Member Payne, and Members of the 
subcommittee, thank you for inviting me to testify on this important 
topic. My name is Mike Sena and I am testifying today in my capacity as 
president of the National Fusion Center association (NFCA). I am 
currently the director of the Northern California Regional Intelligence 
Center (NCRIC), one of the 78 fusion centers in the National Network of 
Fusion Centers (National Network).
    The President's fiscal year 2017 budget request for preparedness 
grants was shocking to us and all of our public safety stakeholders. We 
strongly oppose the drastic cuts because they would destroy 
capabilities that have developed across the National Network of Fusion 
Centers to rapidly gather, analyze, and share threat-related 
information, especially information related to terror threats. If 
Congress enacts the cuts into law, several fusion centers would likely 
close. Many would continue to exist, but their missions would focus 
almost exclusively on State and local priorities. This would create a 
massive blindspot for Federal homeland security and counterterrorism 
partners related to information gathering, analysis, and dissemination. 
In other words, we would wipe out many of the gains in terrorism 
prevention capabilities that have been built since 9/11 at a time when 
the threat picture--according to every CT leader in the Federal 
Government--has never been more dynamic.
    Fusion centers bring together law enforcement, public safety, fire 
service, emergency response, public health, critical infrastructure and 
key resources (CIKR) interests, and private sector security personnel 
to understand local implications of National intelligence, as well as 
add State and local information and context to Federal intelligence, 
thus enabling local, State, and Federal officials to better protect our 
communities from terrorism and other criminal threats.
    Federal support to fusion centers includes assignment of 
intelligence officers and analysts, technical assistance, training and 
exercises, linkage to key information systems, grant funding, and 
security clearances. These tools add critical value to the resources 
committed by State and local governments to make the National Network a 
foundation of homeland security information sharing. Over the past 
several years, the State and local share of budget resources allocated 
to fusion centers has grown substantially. In fact, State and local 
governments now provide well over half of all operating funding for 
fusion centers.
    Still, Federal support through FEMA Preparedness Grants--primarily 
the State Homeland Security Grant Program (SHSGP) and Urban Areas 
Security Initiative (UASI)--remains essential. State and local budget 
models vary widely across the National Network--from nearly 100 percent 
grant funded to nearly 100 percent State- or local-funded. The 
administration's proposal to cut SHSGP by 57 percent, and UASI by 45 
percent, would have a devastating impact on our ability to keep our 
States and Nation safe.
    SHSGP dollars have helped establish and maintain Terrorism Liaison 
Officer (TLO) or Fusion Liaison Officer (FLO) networks throughout the 
country. Through these efforts, fusion centers have trained tens of 
thousands of first responders Nation-wide regarding appropriate 
recognition and reporting of suspicious activity with full recognition 
of privacy, civil rights, and civil liberties requirements. These are 
the individuals walking beats, responding to incidents, working around 
critical infrastructure sites, and developing relationships in every 
community every day. The TLO/FLO networks have helped to enhance our 
ability to share critical threat information by increasing our 
dissemination capabilities across our States, thus building a trusted 
information-sharing network. The information shared among these 
networks includes Officer Safety Bulletins, BOLOs, cybersecurity 
alerts, intelligence products, and numerous other informational 
products that further enhance our ability to keep our States safe. Our 
Federal partners often leverage this dissemination network to get 
critical threat information into the hands of State and locals.
    Preparedness grant funds have also helped to improve dramatically 
our analytic capabilities across the country. Fusion centers provide 
local context and information to Terrorist Screening Center encounters, 
many times providing critical intelligence from State and local 
databases that is unavailable to our Federal partners. We also provide 
critical case support to criminal investigations that are transnational 
in nature, which in turn enhances our ability to provide these same 
services during a major criminal or terrorist event. Everything we do 
each day hones our ability to gather information from the field, 
rapidly analyze it, rapidly share it, and rapidly disseminate important 
information.
    In short, the capabilities and relationships that we exercise daily 
in support of criminal investigative purposes are identical to those 
required for dealing with issues of Federal consequence like a 
terrorist attack. Preparedness grants helped build this capacity, and 
this capacity is put at risk by the fiscal year 2017 budget request.
    Following are a few of the hundreds of examples across the country 
of how FEMA preparedness grants are enabling fusion centers to 
contribute to homeland security and public safety.
    In 2014/2015, 9 positive investigative leads were generated by the 
Boston Regional Intelligence Center (BRIC) through analysis of publicly 
posted social media. The postings exhibited behaviors indicative of 
terrorist radicalization specifically related to ISIL. Three of these 
leads resulted in FBI ``full field'' investigations, and 1 preliminary 
investigation. Additionally, 2 of the leads, 1 to the FBI, and 1 to the 
Rhode Island Fusion Center, proved to be critical during an 
investigation of ISIL-inspired terrorists, leading to indictments by 
the U.S. Attorney's Office.
    Fusion centers have also used grant funds to establish, maintain, 
and enhance cyber threat coordination programs. Given persistent cyber 
threats and the threat of home-grown violent extremism, these funds are 
essential in building, maturing, and sustaining capacity across the 
country. For instance, the Alabama Fusion Center recently added a cyber 
mission and has conducted a Cyber Liaison Officer (CLO) training event 
where they brought together over 40 law enforcement, DOD, academia and 
private-sector professionals to discuss our mission, collaborate on 
cybersecurity, and gain a better understanding of the roles we all have 
in cybersecurity awareness, reporting, analysis, and investigation. 
This training could not have happened without the SHSGP grant awarded 
to Alabama.
    At the Southwest Texas Fusion Center in San Antonio, FEMA 
Preparedness Grants are used by the fusion center to fund a platform to 
coordinate and exchange intel with fusion centers' FLO networks, add 
functionality to tactical operations centers where fusion partners are 
exchanging all calls/all hazards information, provide joint law 
enforcement and fire department training on event planning and other 
media-driven events like active shooters, develop an advanced 
capability to house requests for information and intelligence, critical 
intelligence reports, and SARs, and maintain technology subscriptions 
and hardware used in delivering intelligence to fusion partners and the 
FLO network.
    In Austin, Texas the Austin Regional Intelligence Center invests 
FEMA Preparedness Grant funding to support continual enhancement of 
analytical capabilities. This includes systems that enable analysts to 
utilize the latest technology to analyze open sources for threats to 
the Austin region as well as gather information on large events that 
could impact LE resources, provide a local context and information to 
Terrorist Screening Center encounters often from State and local 
databases that are unavailable to our Federal partners, and provide 
critical case support to criminal investigations.
    The proposed cuts to the FEMA Preparedness Grants would result in 
the loss of analysts who are subject-matter experts in a number of 
topics that include terrorism, human trafficking, and critical 
infrastructure protection. Additionally, much of the infrastructure we 
have worked to establish by way of software and other technology we use 
to accomplish analytical tasks would not likely be possible to 
maintain.
    Most recently my center played a key role in the facilitation of 
communication between local, State, and Federal agencies during Super 
Bowl 50 in the San Francisco Bay Area. This was no easy task, but 
because UASI grant funds have enabled our investment in various 
technological capabilities, we were prepared to identify potential 
situations and empower security personnel to rapidly coordinate and 
respond. For instance, we deployed equipment that provided real-time 
collaboration and communications capabilities among all stakeholders 
including law enforcement, fire, emergency medical services, hospitals, 
and private entities including the NFL on any device that was being 
used by that particular agency. I know interoperability has been an 
important issue for this committee, and with the capabilities we 
acquired using UASI funds, we were able to make that happen in reality 
during the Super Bowl. Additionally, as you can imagine, we had an 
enormous amount of data coming in from all agencies involved with a 
security or emergency response component. Using software capability 
acquired using UASI grant dollars, we were able to rapidly filter and 
analyze that data for potential threats and make that information 
instantly available to all security stakeholders through a common 
operating picture. Without UASI funding, I do not believe that we would 
have been able to bring the same level of confidence in the security 
and preparedness that we had for Super Bowl 50.
    Last year across the network, fusion centers processed thousands of 
requests for information (RFIs) which supported criminal investigations 
from homicide, human trafficking, and narcotics to terrorism-related 
cases and all things in between. Hundreds of those requests were from 
our Federal partners, which demonstrates how integral State and local 
data and intelligence is to the Federal Government's ability to 
identify, investigate, and prevent threats.
    No other organizational structure can provide faster or more 
efficient access to State and local information that may support 
National counterterrorism investigations, or enable faster or more 
efficient situational awareness across relevant jurisdictions than that 
of the National Network of Fusion Centers. Each fusion center has 
methods of distribution across local, regional, and State-wide 
technical and personal networks that Federal investigative and 
intelligence agencies could not possibly build or maintain with their 
own resources.
    To ensure that grant funding is being used for its intended 
purpose, the NFCA has joined other law enforcement associations on a 
letter to Congress urging that the Law Enforcement Terrorism Prevention 
Activities (LETP) requirement in the Implementing Recommendations of 
the 9/11 Commission Act of 2007 (Pub. L. 110-53) be strengthened. The 
law requires that 25% of SHSGP and UASI funding be used for ``law 
enforcement terrorism prevention activities'' and specifies some of 
those types of activities including support for fusion centers. While 
States have latitude to allocate funding according to risk and 
priorities, we agree with the intent of the 2007 law and believe that 
terrorism prevention activities should be constant priorities, 
especially as grant funds have declined over the past 5 years. The 
Government Accountability Office (GAO) found in its November 2014 
report on information sharing and fusion centers that in 2012 States 
inaccurately categorized about $60 million in projects as ``related to 
fusion centers'' when in fact those funds did not support fusion 
centers. As we have suggested in our letter to Congress, requiring a 
Governor-designated State law enforcement executive to review the LETP 
portion of grant plans would help to ensure those funds truly support 
terrorism prevention activities.
    Thanks to fusion centers we are sharing more information more 
effectively than ever before. This is happening despite the fact that 
no single entity has the authority to enforce effective information-
sharing practices. Because of the decentralized nature of public safety 
in America, policies on sharing information cannot be dictated by any 
one organization. Common policies and practices have been developed by 
consensus through multilateral and interagency policy bodies--including 
the Global Justice Information Sharing Initiative (Global) and the 
Criminal Intelligence Coordinating Council (CICC) and must be 
continually reinforced through day-to-day engagements between Federal, 
State, and local partners. As you might imagine, this is 
extraordinarily difficult to achieve in practice, but we have made 
excellent progress and are continuing to build on that progress. We are 
assisted in this work by the program manager for the information-
sharing environment (PM-ISE), which provides critical leadership and 
resources enabling development of standards across multiple law 
enforcement and intelligence stakeholders. Congress should bolster 
support for the PM-ISE function to ensure this coordination can 
continue.
    The National Network of Fusion Centers has come a long way since 
this committee's 2013 report called for the development of a National 
Strategy for the National Network of Fusion Centers. We worked with 
various stakeholders to develop and publish our National strategy in 
2014, and continue to develop the implementation plan that will 
prioritizes our actions through 2017 to achieve objectives under the 
strategy. In addition, this committee's 2013 report called for a 
Federal strategy to support the National Network of Fusion Centers. 
Working together with our Federal partners, we identified a dozen 
initiatives that will be joint priorities over the next several years. 
For the first time, there is a clear Federal strategy that directly 
supports the State and locally-driven National Network.
    I am still often asked whether fusion centers duplicate the FBI's 
JTTFs. Given the extensive work done by this committee, you understand 
this difference, but I must reiterate the differences. As you know, 
JTTFs are Federally-run investigative bodies that support the FBI's 
unique mission to investigate terrorism threats in this country. Fusion 
centers play a much different role; they're not only information-
sharing hubs in States and metropolitan regions. Fusion centers are 
where we train a cadre of terrorism liaison officers (TLOs), including 
police officers, firefighters, EMS workers, and our private-sector 
partners on indicators and warnings of terrorism. Fusion centers have 
the ability to catalogue critical infrastructure in each State and 
region and analyze incoming suspicious activity reports (SARs) against 
the National threat picture and against what we know about our critical 
infrastructure. We have the ability to then rapidly share information 
and intelligence among the entire National Network and with the FBI and 
DHS.
    A case in point occurred during the lead-up to President Obama's 
second inauguration. In the National Capitol Region, multiple fire 
departments received suspicious inquiries about fire and EMS stations, 
equipment, and operations. These inquiries consisted of in person and 
email individuals asking how one becomes a volunteer and what it would 
take to drive a fire truck or other emergency vehicle. The incidences 
were submitted to the Northern Virginia Regional Intelligence Center 
and SARs were developed. Working with our Federal partners, it was 
determined that the same individual was involved in all the instances, 
and an emergency intelligence bulletin was developed. Without the 
analytical training and close working relationships that we have with 
developed with our first responder partners--through the Northern 
Virginia Regional Intelligence Center in this case--the pieces of this 
puzzle could have very easily not have been put together.
    But often that SAR information has no nexus to terrorism. It's 
about drug dealing or gang activity or firearms trafficking or mortgage 
fraud. So the all-crimes approach gives us the ability to analyze that 
information and funnel it to the right place. And we know that, 
sometimes, information that at first blush appears to be criminal in 
nature--the Torrance, California gas station robberies, the smuggling 
of cigarettes in North Carolina, the sale of pseudoephedrine in 
California--actually is linked to terrorist activity. It does not make 
sense to try to separate crime and terror in our daily work of 
analyzing threat information and criminal activity. We have to knock 
that wall down. If we're going to continue to improve, we have to 
understand that the sharing of information makes communities safer. Our 
ultimate goal is to prevent terrorism. But in every community across 
the country there are violent crimes that terrorize neighborhoods and 
families and affect lives and businesses every day. Fusion centers are 
uniquely situated to do things that JTTFs or no other program can do. 
And FEMA Preparedness Grants ensure that these advances are maintained.
    In another example from the Boston Regional Intelligence Center, 
last year the BRIC received information that on-line harassment and 
threats were made by individuals who were scheduled to attend the 
Pokemon World Championship being held at the Haynes Convention Center. 
The convention center notified the BRIC of this threat because of its 
long-standing partnership. BRIC analysis and the sharing of information 
with other agencies enabled quick validation of the threat. Extra 
precautions were put in place immediately, and as a result, the 
individuals making threats were arrested at the event. Found in their 
vehicle were multiple weapons with hundreds of rounds of ammunition. 
UASI funding helped to build those capabilities and sustains them 
today. Without it--or with a 50% cut--these capabilities would likely 
be destroyed.
    I would like thank this committee for its work on improving 
information sharing, and strengthening the mission of the National 
Network of Fusion Centers. This committee has advanced 3 bills through 
the House that would provide critical tools to aid in our abilities to 
keep the Nation safe. Specifically, H.R. 3598, the Fusion Center 
Enhancement Act, sponsored by Congressman Barletta, H.R. 3503, the DHS 
Support to Fusion Centers Act, sponsored by Congresswoman McSally, and 
most recently, H.R. 4401, the Amplifying Local Efforts to Root out 
Terrorism Act, sponsored by Congressman Loudermilk. You have done your 
job to move these bills forward, and hope your Senate colleagues 
consider these bills as soon as possible.
    Mr. Chairman, on behalf of the National Fusion Center Association, 
thank you for inviting me to testify today. I commend your focus on 
ensuring that State and local governments receive the support necessary 
through the FEMA Preparedness Grants to keep our Nation safe. Federal, 
State, and local agencies must continue to be partners in this dynamic 
threat environment. We look forward to continuing to work closely with 
the committee to help meet those expectations.

    Mr. Donovan. Thank you, Mr. Sena. The Chair now recognizes 
Sergeant Kierce.

  STATEMENT OF W. GREG KIERCE, DIRECTOR, OFFICE OF EMERGENCY 
    MANAGEMENT & HOMELAND SECURITY, JERSEY CITY, NEW JERSEY

    Mr. Kierce. Chairman Donovan, Members of the committee, on 
behalf of Jersey City Mayor Steven M. Fulop, I wish to extend 
my sincere appreciation to Congressman Donald M. Payne, Jr., 
and Members of the committee for the opportunity to appear 
before you this morning.
    The intent of the Urban Area Security Initiative program is 
to enhance regional preparedness in major metropolitan areas. 
The UASI program provides funding to address the unique 
multidiscipline planning operations, equipment, and training 
and exercise needs of high-threat high-density urban areas and 
to assist in building and sustaining capabilities related to 
terrorism prevention, protection, mitigation, response, and 
recovery.
    The Jersey City-Newark UASI includes Jersey City, Newark, 
as well as the counties of Bergen, Essex, Hudson, Middlesex, 
Morris, Passaic, and Union. The mission of the Jersey City UASI 
is to ensure the sustainment and enhancement of 
counterterrorism capabilities and planning and responding to 
natural and man-made disasters. According to the FBI and the 
director of the national intelligence, the United States faces 
a significant and growing threat from individuals in this 
country who are willing to conduct domestic mass casualty 
attacks inspired by terrorist ideology. In fact, the DNI has 
said he anticipates ISIS-inspired attacks within the United 
States in the year ahead.
    The threat of violent extremism poses a great risk to the 
Jersey City-Newark UASI region due to its dense population, 
geographic importance, and target-rich environment. The total 
population associated with the Jersey City-Newark UASI is 
approximately 4,792,594, which equates to more than half of the 
entire population of the State of New Jersey, making this 
region one of the most densely-populated areas in the United 
States.
    In the middle of all this is a section of the New Jersey 
Turnpike in Union and Essex Counties that run through what the 
FBI and Government officials from New Jersey have dubbed the 
most dangerous 2 miles in America for terrorist targets. This 
area includes the largest port on the East Coast, Newark 
Airport, major rail lines, densely-populated cities, and 
chemical and petroleum plants. Former director of the New 
Jersey Office of Security and Preparedness Charlie McKenna 
described it best: ``If you want to make New Jersey the heart 
of America or the heart of the northeast, the Turnpike is the 
aorta.''
    The Jersey City-Newark UASI region ranks 7 in the top 10 
UASIs, based on DHS vulnerability and threats assessments. In 
addition to Port Newark and Newark Airport, the region is home 
to rail lines, bridges, and tunnels to New York City. Wall 
Street and other financial service firms house important front 
and back operations, including clearance and settlement 
services and other operations essential to the functioning of 
America's capital marketing, in Jersey City and Newark.
    Since 2002, funding provided through the Department of 
Homeland Security Urban Area Security Initiative has afforded 
Tier 1 UASI regions to accomplish the following 10 goals. Goal 
1 is strengthen CBRNE preparedness and response capabilities by 
acquiring the necessary equipment, training, and other 
resources needed by first responders to effectively detect, 
interdict, and respond to acts of terrorism or accidents 
involving CBRNE materials or agents.
    No. 2, protect critical infrastructure and key resources 
along the region based on a systemic process of identifying and 
cataloguing infrastructure, conducting site visits and risk 
assessments, investing in target-hardening projects, and 
providing additional protective mitigation measures based on 
the current threat level.
    No. 3, strengthen the information and sharing capabilities 
through collaborative partnerships with Federal, State, and 
local and private-sector stakeholders to better protect against 
and respond to terrorist threats, both foreign and domestic, 
incidents such as the active-shooter incidents.
    No. 4, strengthen counterterrorism and law enforcement 
capabilities by continuing to improve our counterterrorism 
operations and partnerships across the region and by building 
specialized capabilities to address threats and acts of 
terrorism.
    No. 5, enhance emergency management and response 
capabilities through the implementation of a proactive posture 
to prepare for the worst-case catastrophic scenarios at all 
levels of government.
    No. 6, advance interoperability emergency communications 
through the efficient utilization and development of 
communication resources and procedures to ensure that our first 
responders can effectively communicate with each other during a 
major incident in order to protect lives and property.
    No. 7, promote citizen and community preparedness by better 
preparing the Jersey City-Newark UASI region citizens and 
communities to be ready for disasters and other emergencies, 
including the ability to sustain themselves for 7 to 10 days 
after an event to assist their neighborhoods in the aftermath 
of a disaster.
    No. 8, build back better from disasters and become more 
resilient against future events through thoughtful resiliency 
planning and by developing long-term recovery capabilities, 
mitigation initiatives, and other efforts to ensure the 
continuity of critical systems during a crisis.
    No. 9, support health and emergency preparedness by 
readying the Jersey City-Newark UASI for a potential pandemic, 
and preparing local communities to distribute medical 
countermeasures on a large scale, supporting the ability of the 
health care community to surge bed capacity and other resources 
to manage large numbers of sick and injured during an incident.
    No. 10, enhance community security capabilities through 
outreach and education, as well as by implementing programs and 
policies to prevent, protect, and respond to, recover from 
cyber attacks or other major cyber incidents in collaboration 
with key partners and stakeholders.
    The proposed cuts to DHS UASI funding would have a 
significant negative impact on our UASI region's disaster 
preparedness, response, and recovery efforts. Hurricane Sandy 
and the continued threat of home-grown terrorism demonstrate 
how we must remain vigilant and prepared. Threats from 
terrorism and response and recovery efforts associated with 
natural disasters will not diminish because of the proposed 
budget cuts to the DHS UASI program. Even in the current fiscal 
climate we do not have the luxury of making significant 
reductions to our capabilities without placing our Nation at 
risk. If we continue to prepare for, respond to, and recover 
from evolving threats and disasters, we will need sufficient 
resources to sustain and adapt our capabilities accordingly.
    In closing, I wish to offer a quote from your colleague and 
Ranking Member committee Member, Congressman Donald M. Payne, 
Jr. These grants are essential to making New Jersey a safer 
place for families to live and work, and they are critical to 
bringing economic security to the State. Following Hurricane 
Sandy, it is clear that we need to invest more to prepare for 
disasters and mitigate casualties as well as reduce the 
economic damages that result from these tragedies.
    Thank you for affording me the opportunity to appear before 
you today.
    [The prepared statement of Mr. Kierce follows:]
                  Prepared Statement of W. Greg Kierce
                             March 15, 2016
    Chairman Donovan and Members of the committee: On behalf of Jersey 
City Mayor Steven M. Fulop I wish to extend my sincere appreciation to 
Congressman Donald M. Payne Jr. and Members of the committee for the 
opportunity to appear before you this morning.
    The intent of the Urban Areas Security Initiative (UASI) program is 
to enhance regional preparedness in major metropolitan areas.
    The UASI program provides funding to address the unique multi-
discipline planning, operations, equipment, and training and exercise 
needs of high-threat, high-density urban areas and to assist in 
building and sustaining capabilities related to terrorism prevention, 
protection, mitigation, response, and recovery.
    The Jersey City/Newark UASI includes Jersey City and Newark, as 
well as the counties of Bergen, Essex, Hudson, Middlesex, Morris, 
Passaic, and Union. The mission of the Jersey City/Newark UASI is to 
ensure the sustainment and enhancement of counterterrorism capabilities 
and planning for and responding to natural and man-made disasters.
    According to the FBI and the director of national intelligence--the 
United States faces a significant and growing threat from individuals 
in this country who are willing to conduct domestic mass casualty 
attacks inspired by terrorist ideology. In fact, the DNI has said he 
anticipates ISIS-inspired attacks within the United States in the year 
ahead. The threat of violent extremism poses a great risk to the Jersey 
City/Newark UASI region due to its dense population, geographic 
importance, and target-rich environment.
    The total population associated with the Jersey City/Newark UASI is 
approximately 4,792,594 which equates to more than half of the entire 
population of the State of New Jersey making this region one of the 
most densely-populated areas in the United States.
    In the middle of it all is a section of the NJ Turnpike in Union 
and Essex counties that runs through what the FBI and Government 
officials from New Jersey have dubbed ``the most dangerous 2 miles in 
America'' for terrorist targets.
    This area includes the largest port on the East Coast, Newark 
Airport, major rail lines, densely-populated cities and chemical and 
petroleum plants.
    Former director of the New Jersey Office of Homeland Security & 
Preparedness Charlie McKenna described it best ``If you want to make 
New Jersey the heart of America or the heart of the Northeast, the 
Turnpike is its aorta.''
    The Jersey City/Newark UASI region ranks 7 in the top 10 UASI 
Regions based on DHS vulnerability and threats assessments.
    In addition to Port Newark and Newark Airport, the region is home 
to rail lines, bridges, and tunnels to New York City.
    Wall Street and other financial service firms house important front 
and back office operations, including clearance and settlement services 
and other operations essential to the functioning of America's capital 
marketing in Jersey City and Newark.
    Since 2002, funding provided through the Department of Homeland 
Security Urban Area Security Initiative has afforded ``Tier 1 UASI 
regions'' to accomplish the following 10 goals;
    Goal 1.--Strengthen CBRNE Preparedness and Response Capabilities by 
acquiring the necessary equipment, training, and other resources needed 
by first responders to effectively detect, interdict, and respond to 
acts of terrorism or accidents involving CBRNE materials or agents.
    Goal 2.--Protect Critical Infrastructure and Key Resources across 
the region based on a systematic process of identifying and cataloging 
infrastructure, conducting site visits and risk assessments, investing 
in target hardening projects, and providing additional protective and 
mitigation measures based on the current threat environment.
    Goal 3.--Strengthen Intelligence and Information Sharing 
Capabilities through collaborative partnerships with Federal, State, 
local, and private-sector stakeholders to better protect against and 
respond to terrorist threats, both foreign and domestic, and other 
incidents, such as active-shooter situations.
    Goal 4.--Strengthen Counter-Terrorism and Law Enforcement 
Capabilities by continuing to improve our counter-terrorism operations 
and partnerships across the region and by building specialized 
capabilities to address threats and acts of terrorism.
    Goal 5.--Enhance Emergency Management and Response Capabilities 
through the implementation of a proactive posture to prepare for worst-
case/catastrophic scenarios at all levels of government.
    Goal 6.--Advance Interoperable and Emergency Communications through 
the efficient utilization and development of communication resources 
and procedures to ensure that our first responders can effectively 
communicate with each other during a major incident in order to protect 
lives and property.
    Goal 7.--Promote Citizen and Community Preparedness by better 
preparing Jersey City/Newark UASI Region citizens and communities to be 
ready for disasters and other emergencies, including the ability to 
sustain themselves for 7 to 10 days after an event and to assist their 
neighborhoods in the aftermath of a disaster.
    Goal 8.--Build Back Better from Disasters and Become More Resilient 
Against Future Events through thoughtful resiliency planning and by 
developing long-term recovery capabilities, mitigation initiatives, and 
other efforts to ensure the continuity of critical systems during a 
crisis.
    Goal 9.--Support Health Emergency Preparedness by readying the 
Jersey City/Newark UASI Region for a potential pandemic and preparing 
local communities to distribute medical countermeasures on a large 
scale, and supporting the ability of the health care community to surge 
bed capacity and other resources to manage large numbers of sick or 
injured during any incident.
    Goal 10.--Enhance Cyber Security Capabilities though outreach and 
education as well as by implementing programs and policies to prevent, 
protect against, respond to, and recover from cyber attacks or other 
major cyber incidents in collaboration with key partners and 
stakeholders.
    The proposed cuts to DHS UASI funding would have significant, 
negative impacts on our UASI regions disaster preparedness, response, 
and recovery efforts.
    Hurricane Sandy and the continued threat of home-grown terrorism 
demonstrate how we must remain vigilant and prepared. Threats from 
terrorism and response and recovery efforts associated with natural 
disasters will not diminish because of proposed budget cuts to DHS UASI 
program.
    Even in this current fiscal climate, we do not have the luxury of 
making significant reductions to our capabilities without placing our 
Nation at risk.
    If we are to continue to prepare for, respond to, and recover from 
evolving threats and disasters, we will need sufficient resources to 
sustain and adapt our capabilities accordingly.
    In closing I wish to offer a quote from your colleague and Ranking 
committee Member Congressman Donald M. Payne:

``These grants are essential to making New Jersey a safer place for 
families to live and work, and they are critical to bringing economic 
security to the state. Following Hurricane Sandy, it is clear that we 
need to invest more to prepare for disasters and mitigate casualties as 
well as reduce the economic damage that results from these tragedies.''

    Thank you for affording me this opportunity to appear before you 
today.

    Mr. Donovan. Thank you, Sergeant Kierce. I now recognize 
myself for questions. I will ask all of you if you could just 
comment on this. I asked the mayor in the first panel the same 
question. I would ask all of you just to give me your opinion 
on this.
    Secretary Johnson is going to be testifying before the full 
committee tomorrow on the Department of Homeland Security's 
fiscal year 2017 budget request. What message would each of you 
give to the Secretary about these proposed cuts?
    Mr. Butterworth. You could just go down the panel. Just 
your opinion.
    Mr. Butterworth. Yes, sir. Thank you, Mr. Chairman. I think 
the year-over-year investment has historically, especially 
since 2011, has been in somewhat of a decline. We have seen in 
recent years a holding steady, and that reflects very much a 
maintenance mode that we are in. We are not capable of 
expanding in the current environment from the local level to 
the State level. But the maintenance that we are doing, the 
recurring maintenance on a 2- to 3-year basis is critical. To 
further decrease those funds would change that cycle from a 2- 
to 3-year refreshment of any number of different forms of 
training, resources, hardware, to a 5- to 6-year cycle. I think 
those types of things, the wrong time right now to do that 
based on the current threat level.
    Mr. Donovan. Thank you, sir.
    Chief.
    Chief Kerr. Thank you. I really would like to echo what Mr. 
Butterworth said, that the threat is still changing, the threat 
is still increasing, and yet we are going to cut back the 
funding that allows us to prepare and respond to those events. 
I have just a couple of numbers here that I wanted to repeat.
    Fifty-one percent of all fire departments that answered a 
survey conducted by NFPA do not have enough portable radios to 
equip all emergency responders on a shift. This percentage is 
down from 77 percent in 2001. Fifty-one percent is still way 
too high.
    So it just proves that the grants are working, but we have 
to continue to be aggressive and assertive at making sure that 
things like that are not happening across the country.
    Mr. Donovan. Thank you, Chief.
    Mr. Sena. I am sorry, Chief Turner. I am sorry.
    Chief Turner. Just really quick, sir, I would just echo 
both Chief Kerr and also Mr. Butterworth's comments. But I 
would just say this: We have to continue to build on our 
partnerships. If we are in a partnership, we have to provide 
the funding that is necessary for us to sustain what we are 
doing in the local areas. Then to take that further, as we 
continue to move into a different space, that technology 
continues to change, we have to be able to expand our network 
of intelligence, and we have to do that with funding at the 
local level.
    Mr. Donovan. Chief, you will be assured that we will relay 
your message to the Secretary tomorrow.
    Mr. Sena.
    Mr. Sena. Sir, since September 11, we have built the 
capacity across the country that we have never had before in 
information sharing and fusion centers, data collection. All 
this capacity relies on grant funding to be effective. Although 
the State and local agencies that support and own fusion 
centers have given over half the money that goes toward fusion 
centers, we still need that support. It seems like every day we 
get farther away from September 11, I feel like they want to 
bring us back to September 10. There are too many lives that 
have been lost. We can't go there. Thank you, sir.
    Mr. Donovan. Thank you, sir.
    Sergeant.
    Mr. Kierce. Just to echo my colleagues, and I think too the 
fact that we are fighting an unconventional level of domestic 
terrorism today shows the need that we have to at least sustain 
these grants at current levels. I would hope that Director 
Johnson fully understands, after hearing from my colleagues 
today and your folks, that we have to maintain this level of 
readiness.
    Mr. Donovan. Thank you, Sergeant. I also would like to ask 
each of you to comment on how FEMA Administrator Craig Fugate 
had noted that the skills attained with these grants and 
programs are perishable, and that we have to constantly plan, 
train, exercise, refresh equipment, as you have pointed out, to 
ensure that we don't lose the capabilities that we have gained 
since September 11, 2001.
    Would you be able to continue the training that you have 
been able to do so far with personnel in the absence of any 
Federal funding or in the absence of the funding that is being 
proposed to be cut?
    Mr. Butterworth. The short answer is no, sir, we would not. 
We would have to drastically reduce the recurrence of that 
training and basically do more with less. We fully understand 
the idea of caps and the necessity to find efficiencies. I 
would submit to you, Mr. Chairman, that we have done that. The 
National Emergency Management Association, emergency managers 
across the country, and Homeland Security advisers as well, 
have found ways to do that. To further task the team with that 
would definitely get to the point of increasing the adversarial 
opportunities.
    Mr. Donovan. My time is running out. I suspect that that 
would be true with all of you with purchasing and maintaining 
the equipment that you need to protect the jurisdictions which 
you are responsible to protect. Would that be accurate to say?
    Chief Kerr. I will just say that is absolutely accurate. I 
totally endorse Administrator Fugate's remarks about losing 
that capability and the capacity. It is really important that 
we maintain that and even build upon that.
    Mr. Donovan. Chief Turner, you were going to say something?
    Chief Turner. Yes. I will just add that our problem is the 
attrition that we face. How do we train our individuals to get 
to the level that we need them to be? Without these funds, we 
fall short of that. We are doing everything we can to partner 
with our local and State partners and Federal partners. But the 
challenge with maintaining that becomes difficult without 
funds.
    Mr. Donovan. Thank you very much, Chief.
    As I said, my time has run out. The Chair now recognizes 
the gentleman from New Jersey, the Ranking Member, Mr. Payne, 
for questions.
    Mr. Payne. Thank you, Mr. Chairman. This question is for 
all the witnesses as well. As I mentioned in my opening 
statement, I am concerned about the administration's proposal 
to cut the existing homeland security grant programs and divert 
funding to programs we know little about. Has DHS engaged with 
you on this vision for either the Regional Competitive Grant 
Program or the Countering Violent Extremist grants to this 
date? Are there thoughts or concerns about either program you 
would like to share with the committee? Mr. Butterworth.
    Mr. Butterworth. Yes, sir. Thank you, Ranking Member Payne. 
I appreciate the opportunity to comment on both of those. No. 
1, we have not been contacted directly about the competitive 
grants. Quite frankly, how that process would play out remains 
a bit of a mystery at our level. To transition to the CVE 
program, we saw the value with our deputy director of Homeland 
Security in Georgia. We began conversations several months ago 
to have discussions about the countering violent extremism, 
where it would be placed, what level would be appropriate. We 
have built a program in Georgia, and we are excited to see the 
opportunity.
    We are encouraged by the investment that Congress and the 
administration has made to the end of countering violent 
extremism. We look forward to the opportunity of a productive 
conversation. But to this point, unfortunately, we haven't had 
those at the Federal level. We continue to do that at the State 
level, and look forward to those conversations. Thank you, sir.
    Mr. Payne. Thank you.
    Chief Kerr. I would echo the fact that there have not been 
any conversations and we have not been consulted or asked what 
we think about that or how it could be more effective. I would 
just say that, you know, at this time, it is so important that 
we are involved in our destiny and involved in how we can best 
prepare our responders, who then in turn can best protect the 
community. We can't do that if we don't know what is happening 
and we don't know where the funding is going to come from.
    Mr. Payne. Thank you.
    Chief Turner. I would just simply say this, that through 
Major City Chiefs, I do not believe that we have been 
approached and briefed. Then second, as it relates to the CVE, 
I think that one thing that we have done, we have to continue 
to celebrate our diversity, as we do in Atlanta. But the 
question is is how we work more aggressively with those 
communities. We do that through community policing initiatives. 
We will need additional funds to be able to expand the programs 
that we put in place.
    Atlanta is the third-most visited city in America, most 
diverse city in the South. It is clear for us that we have got 
to do more than less, and being able to communicate with all 
the various different communities.
    Mr. Payne. Thank you.
    Mr. Sena. Sir, CVE is a big core of what fusion centers do, 
and what we are built to do is to identify those threats. We 
haven't been consulted on this project or this grant proposal 
for a program. It is one of those things that we don't want to 
see the current situation where the grants we are looking at 
are being cut for a new program that we know nothing about. We 
know what we are doing here as far as that coordination and 
effort. We need to expand that and we need more resources to do 
it. But I am in great fear that they will be taking money from 
one side to fund another side that we know nothing about.
    Mr. Kierce. Pretty much echoing my colleagues, Congressman. 
I think that we, through the UASI group, have had no 
interaction with the Federal Government as far as how these new 
programs are planned out. I think, you know, from the CVE 
perspective, if that developed, that is home base, it is law 
enforcement working within the community, knowing the people 
that you serve, and developing relationships and ensuring that 
the trust between law enforcement and the people that you serve 
is there.
    I think that we have to maintain--the current level of 
readiness is critical. Depending on the local taxpayers to bear 
the burden of substituting the dollars that we would be losing 
by Homeland Security I think is just intolerable.
    Mr. Payne. Thank you. I will yield back at this time.
    Mr. Donovan. Thank you. The gentleman yields back.
    At this time the Chair recognizes Mr. Loudermilk from 
Georgia.
    Mr. Loudermilk. Thank you, Mr. Chairman. I apologize I 
missed the earlier part of the committee. I was chairing 
another committee hearing. But this is something very important 
to me. I am going to direct my questions to my good friend Mr. 
Butterworth, as we both served in the State Senate together. He 
was also the adjutant general of the Georgia National Guard, 
and now in his current position is fully aware of the emergency 
preparedness, the status, and the threats that face the State 
of Georgia.
    Let me kind of summarize what we face here in Georgia. We 
have the busiest airport in the world, Atlanta Hartsfield. We 
have 130-plus medium- and small-sized airports throughout the 
State, 2 of the busiest import-export ports in the Nation in 
Savannah and Brunswick, Georgia. Atlanta is the headquarters of 
many Fortune 500 companies. We also have the Center for Disease 
Control in Atlanta, the home of several top research 
universities, as well as the financial center of the southeast. 
Weather is also a consideration in Georgia, as we are 
susceptible to tornadoes, as well as hurricanes coming from the 
Gulf Coast or the Atlantic Ocean.
    Mr. Butterworth, with your knowledge of these, as well as 
the growing threat that we face from terrorism, how significant 
are these cuts in our ability to prepare and respond to whether 
it is a natural disaster, violent extremism, or a target 
against our citizens?
    Mr. Butterworth. Thank you, Congressman. The first answer 
is it is highly disastrous. The first thing I would say, it is 
nice to see you. Thank you for the job that you do for Georgia 
in representing us very, very well.
    Mr. Loudermilk. Thank you.
    Mr. Butterworth. We certainly appreciate your time in that 
regard.
    Detrimental would be another term that I would use. Urban 
search and rescue teams would be cut in half. We currently have 
15. K-9, or explosive ordnance disposal teams, we currently 
have 9 in regional areas. Those will be cut in half, if not 
larger. The Information Sharing and Analysis Center, the fusion 
center in Georgia would largely go unfunded. Currently, we put 
$1.4 million of Department of Homeland Security funds into that 
facility. That would largely go unfunded because of other areas 
that would have to be shored up, for lack of a better term. It 
is highly detrimental to the end result.
    The Emergency Management Assistance Compact. I was 
encouraged in the earlier discussion, earlier panel, 
Congressman, Mayor de Blasio used the term that we coined in 
Georgia, ``if it ain't broke, don't fix it.'' I was encouraged 
to hear him say that. I would also apply that to the EMAC 
operation itself. EMAC would largely go unfunded as well.
    As you know, if an area is impacted, it is typically not 
defined in one State, it is across State borders in many cases. 
There is the opportunity, as we saw in South Carolina last fall 
with the flooding, we provided individuals specifically to help 
them in the recovery process. All of those things would be 
detrimentally impacted. We certainly would appreciate your help 
in that regard. Thank you, sir.
    Mr. Loudermilk. Thank you. It is interesting that you 
brought up the fusion centers. Two weeks ago, we passed on the 
House floor the ALERT Act, a bill that I authored, and that was 
a strong bipartisan support in this committee, as well as no 
opposition on the floor. The ALERT Act was in response to the 
Task Force on Foreign Fighter Travel that I served on. When we 
realized that we needed to have a force multiplier for our 
Federal agencies regarding countering terrorism and CVE 
efforts, and that our local law enforcement were perfectly 
positioned to do that, but there were bureaucratic hurdles in 
the way. The ALERT Act removed those bureaucratic hurdles, but 
yet all of the training and resources would be funneled through 
the fusion centers as the center.
    So even though we are making great strides with providing 
better engagement with local and State resources with our 
Federal regarding terrorism, what I am understanding is if we 
lose the funding for the fusion center, then none of this would 
have any effect. Is that true?
    Mr. Butterworth. Yes, sir. That is exactly true. The fusion 
center is definitely the focal point for intelligence--
obviously, intelligence gathering, information sharing, and 
analysis. I think that impact would basically force us to go 
blind in many respects. I defer to my panel colleague Mr. Sena 
in that regard, specifically on the fusion center topic. But we 
would definitely be operating largely in the blind.
    Mr. Loudermilk. Mr. Sena.
    Mr. Sena. Yes, sir. Every year we train hundreds of 
thousands of officers across the country on suspicious 
behaviors, the things to look for. If we lost this funding, 
that training wouldn't exist. We would not have the eyes and 
ears of State and local law enforcement to support us in 
gathering that information, nor would we have the training on 
privacy, civil rights, and civil liberties protections for the 
folks on what they can legally collect. All that would be gone.
    Mr. Loudermilk. Okay. I see my time has expired, Mr. Chair.
    Chief Turner.
    Chief Turner. Thank you. I would just really add 2 things. 
The funding from Homeland Security allowed us to do something 
very unique in the city of Atlanta, and that is to begin the 
stand-up of a video integration center that allows us to bring 
cameras into one centralized location. Since that initial 
funding, we have expanded that network of cameras above 6,000 
cameras that come into one centralized location. It gives us 
the kind of situational awareness that we need to make strong 
decisions as we partner with GEMA and all of our Federal and 
local agencies to deal with challenging issues.
    As you know, we host the largest 10K road race in the 
world. The Peachtree Road Race is a challenge for us in that we 
entertain more than 60,000 runners and more than 300,000 
spectators. How do you deal with that without the kind of 
situational awareness that we need from programs that are 
provided by the homeland security grants that we previously 
received?
    Mr. Loudermilk. Chief Kerr.
    Chief Kerr. Thank you. I just wanted to add that, besides 
all of your law enforcement personnel that are trained on 
suspicious activity reporting and all those things, in Austin, 
Texas, we are also a part of our fusion center, and we have a 
member that sits on the FBI Joint Terrorism Task Force, and 
that there are many more eyes out there that can be part of 
like a threat liaison officer program. We wouldn't have those 
things if we didn't have the funding and the support of the 
Austin Regional Intelligence Center. I just wanted to add that 
it is more than just our law enforcement people that are 
helping, but there is firefighters out there that are your eyes 
on the ground.
    Mr. Loudermilk. Thank you, Mr. Chairman. My time has 
expired. I yield back. But I encourage our Members, it looks 
like we have a lot of work to do to correct this problem.
    Mr. Donovan. You are absolutely right. Just to continue in 
the vein that you were just speaking, Chief Kerr, Chief Turner, 
and Mr. Sena, last week the American Enterprise Institute 
released a report that claims that fusion centers are redundant 
to Joint Terrorism Task Forces, and that eliminating fusion 
centers or incorporating them into JTTFs would strengthen State 
and local information-sharing and intelligence activities.
    Fusion centers, my understanding is, fusion centers serve 
as a focal point for gathering and sharing vital homeland 
security information between Federal Government, State, and 
front-line law enforcement and first responders, including fire 
service, as you said, Chief, emergency managers, public health, 
as well as the private sector. The primary mission of the JTTFs 
is to conduct terrorism-related investigations, which means the 
ability to share information with first responders would be 
limited because of the fear that leaked information could 
compromise an open investigation.
    So eliminating fusion centers or combining them with JTTFs 
doesn't make sense to me. You are the experts. Have any of you 
seen the AEI report? If you have, I would appreciate your 
comments about their proposal. I open that up to the panel.
    Mr. Sena. Sir, I did read the report and was as dumbfounded 
as the budget. You know, this budget proposal doesn't make any 
sense to us, and neither did the report. Very ill-informed. It 
did not have the details in that report that show what fusion 
centers really are. They are State and locally-owned and -
operated. As Chief Kerr reported, you know, it is more than 
just law enforcement.
    We have lots of folks that work with fusion centers. We 
bring those people together, and we look at a broad range of 
threats to our communities, everything from narcotics 
trafficking to threats in the community, from criminal gangs 
and organized crime groups. We don't know, and my experience 
has been where are we going to find that CVE threat? Where are 
we going to find the terrorist threats? Oftentimes I have found 
them through regular criminal activity, or through sources of 
information from criminal activity. That is the role of fusion 
centers, to bring all those pieces together.
    There is no way that State and local law enforcement, 
anyone sitting on this panel is going to say, you know, our 
partners in the FBI should take over this mission. Even our 
partners in the FBI don't believe they should take over this 
mission. This is a State and local mission where we leverage 
all of our authorities, and we also bring our Federal partners 
along to work with us in our fusion centers. We do a great job, 
and it is through collaboration. It is not just focused on 
terrorism. Although it is a key cornerstone of what we do, we 
look at all the threats to our local community, and we serve 
every member, fire, emergency medical personnel, emergency 
management, and the law enforcement community.
    Mr. Donovan. I agree you do do a great job.
    Chief Turner.
    Chief Turner. I would just really echo what he just said 
and then just add this: That both our fusion center in the 
State of Georgia as well as our Joint Terrorism Task Force, we 
have to work continually together. They have 2 separate 
missions, but at the same time they work very closely together. 
The Atlanta Police Department has members in both of those 
centers. Quite frankly, if we did not have those 2, then we 
would be trying to do what our largest city in America does 
regularly, and that is do it on their own. The New York City 
Police Department has a tremendous amount of resources that 
they provide to the homeland.
    Cities like Atlanta, with more than 2,500 employees, cannot 
do this work alone. We have to rely on the joint centers, as 
well as the Joint Terrorism Task Force and the fusion centers, 
so that we can work collectively to be able to resolve the 
challenges that face each and every one of us.
    Mr. Donovan. I think, Chief, you hit a vital point that 
dispels the argument, the fact that these are 2 distinct 
responsibilities that are undertaken by these 2 entities, and 
that the elimination of 1 or joining the 2 could jeopardize our 
ability to protect our Nation.
    The Chair now recognizes our Ranking Member for our final 
questions.
    Mr. Payne. Thank you, Mr. Chairman. I wanted to talk about 
a topic that is very important to me. This question is, once 
again, for all the witnesses. Since I joined this panel in 
2013, I have worked hard to promote programs and policies that 
advance interoperable communications capabilities. 
Unfortunately, the Interoperable Emergency Communications Grant 
has not been funded in half a decade. I suspect the cuts to 
homeland security grants will only further undermine 
interoperable communication efforts.
    Can each of you talk about how the elimination of the 
Interoperable Emergency Communications Grant Program has 
affected interoperability efforts and how grant cuts might 
further hinder interoperability goals? Sergeant Kierce.
    Mr. Kierce. Congressman and Mr. Chairman, interoperability 
communication still is a challenge among the public safety 
folks. In Jersey City, Hudson County alone, with the 12 
different municipalities you have operating on different 
frequencies, and there again, when you are called to a major 
event, many times basic fire services aren't able to 
communicate with firefighting ground operations. It is the same 
thing with the police departments.
    In Jersey City alone, we have several law enforcement 
agencies, both the sheriff's department, Port Authority Police, 
Jersey City Police, and other law enforcement agencies, all 
operating under different frequencies and bandwidths. Since my 
involvement with UASI in 2002, interoperability has been a 
communications nightmare. The cuts in funds has led towards a 
failure in communications as a whole.
    Mr. Payne. Thank you.
    Chief Turner. I would just simply add that one of our 
biggest challenges in interoperability is not just--in large 
cities we do fairly well. The investment has been made, and we 
have systems that are in place that we can communicate. 
However, the challenges are those small agencies, even 
university police.
    Just recently, we had a conversation with some of our 
Atlanta university-centered police departments that really do 
not have the network to be able to communicate in a crisis. So 
we have to expand the program to be able to bring all of those 
smaller agencies into the network.
    Chief Kerr. I would echo my former colleagues here, their 
comments, but then add the University of Texas into that, and 
make sure that we include the capital and all the different 
police agencies that do not have interoperable communications 
in the Austin-Travis County area. We are fortunate in regard to 
the fire service in that we dispatch for all 15 fire 
departments that are part of Travis County. So we do have that 
interoperable communication and we are able to make that work. 
It is a huge difference when you have that. But when funding 
starts getting cut and you are not able to enhance that 
interoperable communications, things are going to happen, and 
we are not going to be able to address them as we should.
    Mr. Butterworth. Thank you, sir. A quick comment. Going on 
some of my previous background as an Air Force aviator, I have 
seen the issue that having interoperability is--the problem of 
not having that interoperability brings. One airplane that I 
flew had 8 different radios in order to facilitate different 
communications, immediate communications, with individuals both 
in the air and on the ground. I saw on more than one occasion 
the operation worked to a detriment because first-hand 
communication was not capable. I have also seen in the first 
responder world in Georgia, multijurisdictional problems, just 
like Chief Turner has referenced, across the State is a 
challenge.
    We, to that end, have initiated and perpetuated a recurring 
training cycle of interoperability, where we bring 
jurisdictions from all over the State of Georgia and put those 
interoperability capabilities in a close geographical location 
to facilitate better communication. That has made an incredible 
difference in the State of Georgia. I know my peers in other 
States have done the same thing.
    If these cuts become reality, those training opportunities 
would be minimal, and it would be an extremely detrimental 
impact to interoperability capabilities. Thank you, sir.
    Mr. Payne. Yes.
    Mr. Sena. From my perspective, voice, video, and data, 
textual data, are critical to saving lives. Without these 
grants, the equipment that we currently have in use would no 
longer be able to be maintained and we would lose that 
capability. So it is something that for me, during the Super 
Bowl, was an incredible asset to be able to share information, 
both the voice capability and actually video and textual, show 
them in real time, not only showed people in our region what 
was going on, but showed people in District of Columbia what 
was happening in real time. That would be gone.
    Chief Turner. If I could just make one last point. In my 34 
years of policing, when I first came on the police department, 
we had a radio that had 6 channels. Our problem is there are so 
many channels and talk groups on our radios. If we don't have 
these funds, we don't have the ability to continue to train the 
individuals that are coming into this business. Funding for 
training is absolutely essential for us to be able to be 
effective as we move to try to mitigate challenges that come 
our way. Thank you.
    Mr. Payne. Well, I would like to thank all of you for your 
testimony today. It has been very enlightening and informative 
as well. You are our eyes and ears and the people on the ground 
and first responders, and we appreciate the work that you do 
and the testimony that you have brought today.
    So with that, Mr. Chair, I will yield back.
    Mr. Donovan. I join my friend, Congressman Payne, in 
thanking you for what you do for the citizens of our Nation and 
your commitment to protecting them and their safety. I want to 
thank you all for your valuable testimony today, and for my 
fellow Members for their questions.
    The Members of the subcommittee may have some additional 
questions of the witnesses. We will ask that you respond to 
those in writing.
    Pursuant to Committee Rule VII(e), the hearing record will 
be held open for 10 days. This subcommittee stands adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
